     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




    Commander’s Emergency Response Program in
    Laghman Province Provided Some Benefits, but
  Oversight Weaknesses and Sustainment Concerns Led
    to Questionable Outcomes and Potential Waste




                                        January 27, 2011

SIGAR Audit-11-7 Contract Performance and Oversight/ CERP
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


January 27, 2011

The Honorable Robert Gates
Secretary of Defense

General John N. Mattis
Commander, U.S. Central Command

General David Petraeus
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force

This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) audit of selected Commander’s Emergency Response Program (CERP) projects
in Laghman Province, Afghanistan. This report includes recommendations to the Commander, U.S.
Forces-Afghanistan (USFOR-A), to improve oversight of CERP projects, including updating guidance and
evaluating project outcomes, and to help ensure the sustainment of CERP projects. When preparing the
final report, we considered comments from USFOR-A on a draft of this report. In their comments,
USFOR-A generally concurred with the report’s findings and recommendations. These comments are
reproduced in appendix IV of this report.

A summary of this report is on page ii. SIGAR conducted this performance under the authority of Public
Law 110-181, as amended, the Inspector General Act of 1978, and the Inspector General Reform Act of
2008.




Kathryn H. Bernet
Acting Assistant Inspector General for Audits
Office of the Special Inspector General
   for Afghanistan Reconstruction




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                         Page i
                SIGAR
                                                           SIGAR Audit-11-7                                            January 2011

                                                             Commander’s Emergency Response Program in
                                                             Laghman Province Provided Some Benefits, but
                                                            Oversight Weaknesses and Sustainment Concerns
Special Inspector General for Afghanistan Reconstruction
                                                           Led to Questionable Outcomes and Potential Waste
What SIGAR Reviewed
Since 2004, Congress has appropriated nearly $2.64 billion for the Commander’s Emergency Response Program (CERP)
in Afghanistan. CERP is a Department of Defense (DOD) program managed by U.S. Forces-Afghanistan (USFOR-A) that
enables commanders to fund humanitarian relief and reconstruction projects to immediately assist the indigenous
population. In recent years, Congress has expressed significant concerns over the rapid growth of CERP funding in
Afghanistan, the use of CERP funds on large-scale development projects, and the capacity of the government of
Afghanistan to absorb the influx of CERP-funded projects. SIGAR initiated this audit to examine the funding, outcomes,
and oversight of 69 selected CERP projects in Laghman Province. As of November 2010, the total funding obligated for
the 69 projects was more than $53 million. Specifically, SIGAR (1) assessed the projects’ status, including funds
obligated and disbursed, whether the projects were meeting intended outcomes and, if applicable, were being
sustained; and (2) determined whether project oversight was in accordance with applicable guidance. To accomplish
these objectives, SIGAR reviewed relevant laws, regulations, standard operating procedures, and other guidance related
to CERP and interviewed U.S. and Afghan officials. SIGAR also conducted file reviews for all 69 projects. SIGAR was able
to assess the outcomes of 46 projects, which included site visits to 36 of these projects. SIGAR conducted work in Kabul
and Laghman Province, Afghanistan, from July through December 2010 in accordance with generally accepted
government auditing standards.

What SIGAR Found
In Laghman Province, CERP project costs and outcomes were mixed and varied by project type. About $2 million was
obligated (4 percent of the projects we selected) for 19 projects that had generally successful outcomes; however,
about $49.2 million was obligated (92 percent of the projects we selected) for 27 projects that are at risk or have
resulted in questionable outcomes. Most of the CERP investment in Laghman was used for large-scale projects,
specifically for the construction of asphalt roads and new facilities. All asphalt road projects (about $44.6 million
obligated) are at risk due to the lack of maintenance plans. In addition, we identified more than $3 million in obligations
at risk for buildings that were completed but are not being used as intended, or the construction was ongoing and the
government of Afghanistan has not agreed to a business plan to sustain the facilities after completion.
SIGAR found that CERP project oversight was not in compliance with applicable requirements, which places CERP funds
at risk of questionable outcomes and potential waste. For example, most project files lacked required legal reviews and
sufficient documentation to substantiate payments. In addition, SIGAR identified two groups of related projects that
were more in line with large-scale development efforts and had sustainment concerns. As SIGAR has reported, large-
scale projects require significant amounts of time and resources to monitor; however, CERP oversight officials rotate
frequently and have been trained to implement smaller-scale projects. Finally, USFOR-A lacks a coordinated, results-
oriented approach to determine whether CERP projects have achieved their goals, are being used as intended, and are
being sustained. Without adequate oversight and assessments of results, the U.S. investment is at risk for waste and the
Afghan people may not receive the projects’ intended benefits.


What SIGAR Recommends
SIGAR is making five recommendations to the USFOR-A Commander to improve oversight and promote the sustainment
of CERP projects in Laghman Province, establish criteria for the planning and approval of related CERP projects, and help
assess whether CERP projects have met their intended outcomes. The recommendations address the following actions:
(1) develop approaches to improve construction quality and sustainment plans for active CERP projects, or consider
terminating or de-scoping active CERP projects and re-obligating the funds for better use, if it is in the best interest of
the government to do so; (2) require contractors to repair any defective work for completed projects that are still under
warranty; (3) work with Afghanistan government officials to develop sustainment plans for completed CERP projects
that have not been sustained; (4) update CERP standard operating procedures to include criteria to help field
commanders determine when groups of CERP projects should be considered related for project planning and approval
purposes; and (5) develop a coordinated, results-oriented approach for evaluating CERP project effectiveness. In
commenting on a draft of this report, USFOR-A generally concurred with the findings and recommendations.
                     For more information contact: SIGAR Public Affairs at (703) 602-8742 or PublicAffairs@sigar.mil


SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                                       Page ii
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
Although CERP Project Outcomes Were Mixed, Questionable Outcomes Exceed
    $49 Million in Obligations....................................................................................................................... 5
Oversight Weaknesses, Separate Planning for Related Projects, and Inadequate
   Performance Monitoring Increased Risks of Questionable Outcomes and
   Potential Waste .................................................................................................................................... 14
Conclusion ................................................................................................................................................... 19
Recommendations ...................................................................................................................................... 19
Comments ................................................................................................................................................... 20
Appendix I: Scope and Methodology .......................................................................................................... 21
Appendix II: CERP Projects Reviewed Throughout Laghman Province ....................................................... 24
Appendix III: Permissible Categories of CERP Fund Usage ......................................................................... 64
Appendix IV: Comments from U.S. Forces-Afghanistan ............................................................................. 66


TABLES

Table 1: Reasons for Concern for 27 Projects with at Risk or Questionable
    Outcomes (dollars in thousands)........................................................................................................... 6
Table 2: CERP Projects by Project Type and Outcome (dollars in thousands) .............................................. 6
Table 3: Location, Status, Outcome, and Costs of Road Projects ................................................................. 7
Table 4: Location, Status, Outcome, and Costs of Facility Projects .............................................................. 8
Table 5: Location, Status, Outcome, and Costs of Protection Wall, Gabion Wall,
    and Check Dam Projects ....................................................................................................................... 10
Table 6: Location, Status, Outcome, and Costs of Canal Projects .............................................................. 11
Table 7: Location, Status, Outcome, and Costs of Bridge Projects ............................................................. 12
Table 8: Location, Status, Outcome, and Costs of Security Wall Projects .................................................. 12
Table 9: Location, Status, Outcome, and Costs of Equipment Projects...................................................... 13
Table 10: Location, Status, Outcome, and Costs of Agricultural Supply Projects ....................................... 14
Table I: SIGAR Criteria for Determining CERP Project Outcomes ............................................................... 25
Table II: Summary of Selected CERP Project Outcomes by Project Completion
    Status .................................................................................................................................................... 26



SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                                                               Page iii
FIGURES

Figure 1: Map of Afghanistan, Highlighting Laghman Province .................................................................... 3
Figure 2: Obligations for 69 Projects by Location, Fiscal Years 2008 through 2010 ..................................... 3
Figure 3: Obligations for 69 Projects by Project Type, Fiscal Years 2008 through
    2010 ........................................................................................................................................................ 4


ACRONYMS

ADT                                  Agribusiness Development Team
CBF                                  Capacity Building Fund
CERP                                 Commander's Emergency Response Program
DOD                                  Department of Defense
FAR                                  Federal Acquisition Regulation
FMR                                  Financial Management Regulation
FOB                                  Forward Operating Base
GIRoA                                Government of the Islamic Republic of Afghanistan
LEAF                                 Laghman Empowerment Agricultural Facility
PRT                                  Provincial Reconstruction Team
RC-E                                 Regional Command-East
SIGAR                                Special Inspector General for Afghanistan Reconstruction
STANFINS                             Standard Finance System
USFOR-A                              U.S. Forces-Afghanistan




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                                                                Page iv
     Commander’s Emergency Response Program in Laghman Province Provided
     Some Benefits, but Oversight Weaknesses and Sustainment Concerns Led to
                    Questionable Outcomes and Potential Waste


Since 2004, Congress has appropriated nearly $2.64 billion for the Commander’s Emergency Response
Program (CERP) in Afghanistan. CERP is a Department of Defense (DOD) program managed by
U.S. Forces-Afghanistan (USFOR-A) that enables commanders to fund humanitarian relief and
reconstruction projects to immediately assist the indigenous population. In recent years, Congress has
expressed significant concerns over the rapid growth of CERP funding in Afghanistan, the use of CERP
funds on large-scale development projects, and the capacity of the government of Afghanistan to absorb
the influx of CERP-funded projects. 1 SIGAR has conducted three audits related to CERP, which identified
weaknesses in CERP oversight. 2

SIGAR initiated this audit to examine the funding, outcomes, and oversight of 69 selected CERP projects
in Laghman Province, Afghanistan, that were approved in fiscal years 2008 through 2010. The
69 projects we selected include 24 active, 42 completed, and 3 terminated projects. Among other
factors, we selected Laghman Province because, based on USFOR-A data, it had the highest average
CERP project obligations of the provinces in Regional Command-East (RC-E). As of November 2010, the
total funding obligated for the 69 projects we selected was more than $53.3 million. Specifically, our
objectives were to (1) assess the projects’ status, including funds obligated and disbursed, whether the
projects were meeting intended outcomes and, if applicable, were being sustained; 3 and (2) determine
whether project oversight by U.S. officials was in accordance with applicable guidance.

To accomplish these objectives, we reviewed relevant laws, regulations, standard operating procedures,
and other guidance related to CERP. We interviewed CERP oversight officials from USFOR-A and the
Provincial Reconstruction Team (PRT), Agribusiness Development Team (ADT), and Task Force Iron Gray,
which are co-located at the Forward Operating Base (FOB) in Mehtar Lam, the capital of Laghman. We
also interviewed the provincial governor of Laghman. The 69 projects we selected represented 91
percent of the $58.5 million obligated for CERP projects in Laghman Province during fiscal years 2008
through 2010. We also conducted file reviews for all 69 projects and site visits for 36 of the 69 projects,
which represented $39.8 million in obligations, or nearly 75 percent, of the total obligated for all 69
projects we selected. We conducted our work in Kabul and Laghman Province, Afghanistan, from July
through December 2010 in accordance with generally accepted government auditing standards.
Appendix I includes a discussion of our scope and methodology.

1
    See Senate reports 111-201 and 111-295.
2
  See SIGAR, Increased Viability, Monitoring, and Planning Needed for Commander’s Emergency Response Program
in Afghanistan, Audit-09-5 (Sept. 9, 2009); The Tojg Bridge Construction Is Nearly Complete, but Several Contract
Issues Need to Be Addressed, Audit-10-7 (Mar. 1, 2010); and Weaknesses in Reporting and Coordination of
Development Assistance and Lack of Provincial Capacity Pose Risks to U.S. Strategy in Nangarhar Province,
Audit 11-1 (Oct. 26, 2010).
3
 CERP standard operating procedures do not define a successful project outcome. Therefore, to assess project
outcomes, we focused on whether the work performed was in compliance with contract requirements, including
the quality of the work, and whether the government of Afghanistan is sustaining or plans to sustain the projects
after they have been completed.
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                    Page 1
BACKGROUND

U.S. military commanders use CERP as a tool to promote counterinsurgency objectives, including
supporting the government of Afghanistan, protecting the Afghan people, and defeating the insurgency.
CERP is the primary source of funding available to PRT, ADT, and task force commanders 4 to execute
projects in their areas of responsibility. CERP’s authorizing legislation gives field commanders broad
authority to spend CERP funds notwithstanding other provisions of law. 5 As a result, projects funded by
CERP funds are not bound by the Federal Acquisition Regulation (FAR) or other procurement laws.

A DOD Financial Management Regulation (FMR) lists 20 authorized uses for CERP funds, 6 including
electricity, education, transportation, and other urgent humanitarian or reconstruction projects. (See
appendix III for a complete list of authorized CERP categories.) USFOR-A is responsible for providing
oversight of CERP in Afghanistan and has issued standard operating procedures, 7 which have evolved
over the years. 8 Starting in May 2009, these procedures were included in USFOR-A Publication 1-06,
which provides guidance for using money as a weapon system in Afghanistan. The FMR and standard
operating procedures that applied to the CERP projects we selected required commanders to coordinate
CERP projects with Afghanistan government representatives and to document Afghanistan’s
commitment to sustain the projects after completion. As of December 2009, CERP standard operating
procedures required that all CERP projects adhere to the Afghanistan First Program, which encourages
the use of Afghan contractors to the greatest extent possible. All the projects we selected were awarded
to Afghan contractors.

The 69 CERP projects we selected were managed by officials from the PRT, ADT, and task forces located
at FOB Mehtar Lam in Laghman Province. Figure 1 shows the four districts and one municipality in
Laghman Province. Twenty-seven of the 69 projects we selected were in Mehtar Lam, 15 in Alisheng,
14 in Qarghahi, 10 in Alingar, and 3 in Dowlat Shah.




4
    In this report we refer to PRT, ADT, and task force commanders as field commanders.
5
    P.L. 108-106, Title 1, Section 1110.
6
 DOD, Financial Management Regulation 7000.14-R, volume 12, chapter 27, Commanders’ Emergency Response
Program (January 2009).
7
 USFOR-A assumed responsibility for CERP management in May 2009. Prior to that date, combined joint task
forces in RC-E were responsible for CERP management in Afghanistan.
8
 We selected projects approved in fiscal years 2008 through 2010. The applicable CERP standard operating
procedures include, Money as a Weapon System–Afghanistan, USFOR-A Publication 1-06, updated December 2009
and May 2009; Commander’s Emergency Response Program Standard Operating Procedures, Combined Joint Task
Force-101, updated September 2008; and Commander’s Emergency Response Program Standard Operating
Procedures, Combined Joint Task Force-9, updated October 2007.
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                              Page 2
    Figure 1: Map of Afghanistan, Highlighting Laghman Province




    Source:.SIGAR analysis of maps available on U.S. Agency for International Development website.

As shown in figure 2, Mehtar Lam received the largest amount of CERP funding, followed by Alisheng
and Qarghahi.


    Figure 2: Obligations for 69 Projects by Location, Fiscal Years 2008
    through 2010
                                                              Alingar
                                                             $1,627,207
                                                                 3%

                            Dowlat Shah
                             $8,931,086
                                17%                   Mehtar Lam
                                                      $21,071,175
                                                         39%
                          Qarghahi
                         $10,659,151
                            20%
                                         Alisheng
                                        $11,019,757
                                           21%




    Source: SIGAR analysis of Department of the Army’s Standard Finance System (STANFINS),
    USFOR-A, PRT, ADT, and task force data.



SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                             Page 3
Of the 69 projects we selected, 11 projects were for road construction; 17 were to build or renovate
facilities; 30 were for other types of construction, such as building or renovating dams, walls, canals, or
bridges; and 11 provided equipment, including agricultural supplies. 9 The projects ranged from $32,537
to install two canal passageways in Kanda Village to $8.7 million for the construction of a paved road
from the Alisheng District to the Dowlat Shah District. Road projects comprised about $44.8 million of
the CERP funds obligated (84 percent of total obligations). Figure 3 shows the obligations for the
69 projects by project type.


       Figure 3: Obligations for 69 Projects by Project Type, Fiscal Years 2008 through 2010
                              Other                                        Equipment and
                           Construction                                       Supplies
                            $2,791,107                                        $927,286
                                5%                                              2%


               Facilities
              $4,761,889
                  9%



                                                               Roads
                                                             $44,828,093
                                                                84%




       Source: SIGAR analysis of STANFINS, USFOR-A, PRT, ADT, and task force data.
       Note: The other construction type incudes projects to build or renovate protection walls, gabion walls,
       check dams, canals, bridges, and security walls.

In addition to CERP guidance, two initiatives in Laghman Province—the Go Green strategy and the
Capacity Building Fund—influence the way field commanders executed CERP:

      •    The Go Green strategy rewards villages that support the government of Afghanistan with U.S.
           government-funded projects. Under the initiative, the PRT codes villages as green, red, amber,
           or violet to indicate the level of support the village provides the government of Afghanistan.
           Only villages coded green are eligible for U.S. government funding. Villages achieve a green
           rating when the community does not harbor insurgents, community/religious leaders do not
           advocate violence against Afghanistan or coalition forces, there are no attacks from the
           community against the Afghan National Security Forces or coalition forces, and the village elders
           have signed a contract agreeing to the aforementioned criteria. As of September 30, 2010,
           182 of the 596 villages in Laghman Province were green (i.e., eligible for new projects), 145 were
           red (i.e., not currently eligible for new projects), 95 were amber (i.e., in the process of becoming
           eligible for new projects), and 174 were violet (i.e., no assessment of the village has been
           conducted yet to determine eligibility).

9
    We created these project types for the purpose of summarizing the projects.
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                         Page 4
     •   The Capacity Building Fund (CBF) initiative, previously called CERP as a Budget, is implemented
         throughout RC-E. Under this initiative, the PRT and ADT provides mentors to the provincial line
         directors and the task force provides mentors to the district governors. The mentors give the
         Afghan officials a notional budget to plan projects. The officials must provide a 1-year strategy
         for using the budget, and provide a viable sustainment plan for proposed projects. As part of the
         CBF initiative, no funds are transferred and no contracting authorities are given to Afghan
         government entities. When we conducted our site visits in September 2010, many of the
         projects funded under the CBF initiative in Laghman had not been completed, and it was too
         early to determine whether ministries were sustaining the projects.

Our analysis did not take into account other factors that may determine a successful counterinsurgency
outcome, such as the perceived legitimacy of government of Afghanistan, measures of corruption,
differences in economic growth, or the number of insurgent attacks, because such assessments are
beyond the scope of our review. Additionally, counterinsurgency guidance suggests that CERP projects
should help promote stability in insecure areas. 10 However, we did not attempt to assess project
outcomes on this basis because such an analysis would require us to make decisions about military
intelligence that are not in the scope of our audit responsibilities. 11


ALTHOUGH CERP PROJECT OUTCOMES WERE MIXED, QUESTIONABLE OUTCOMES EXCEED
$49 MILLION IN OBLIGATIONS

Based on our assessment of 46 projects, 12 we found 19 projects with generally successful outcomes
accounting for about $2 million in obligations (4 percent of total obligations), but we determined that
27 projects had or were at risk for questionable outcomes and they accounted for the vast majority of
the funding—about $49.2 million (92 percent). For our analysis, we grouped projects by whether they
were active or completed and according to project outcome. For active projects, we determined
whether they were “generally successful” to date or “at risk,” and for completed projects we
determined whether they were “generally successful” or had “questionable” outcomes. See appendix II
for a detailed description of our assessment criteria. The projects with questionable outcomes or at risk
included the highest cost projects, primarily the construction of asphalt roads. For example, 9 asphalt
road projects (about $44.6 million) that we reviewed are at risk because of sustainment concerns.

Table 1 summarizes the outcomes of the 27 projects with at risk or questionable outcomes and our
reasons for concern.




10
  Army Field Manual 3-24, Counterinsurgency, outlines successful operational practices for a counterinsurgency,
such as: focus on the population, its needs, and its security; establish and expand secure areas; isolate insurgents
from the populace; and deny sanctuary to insurgent.
11
  We were unable to visit 14 of the projects, having a total obligation of nearly $6.9 million, due to security
concerns.
12
  We did not assess 23 projects with total obligations of about $2.1 million. Five were active projects (about
$500,000 obligated) for which the contract had not been awarded or the work was in its early stages when we
conducted our site visits; 15 were completed projects (about $1.4 million) that we could not visit (due to security
concerns or remoteness of the project site) or the project files contained insufficient evidence for us to determine
the projects’ outcomes; and 3 projects (about $200,000) were terminated after funds had been disbursed.
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                          Page 5
 Table 1: Reasons for Concern for 27 Projects with at Risk or Questionable Outcomes
 (dollars in thousands)
                                                         At Risk                           Questionable
                                    At Risk             Projects         Questionable           Projects               Total
 Reason for Concern                Projects        (Obligations)             Projects      (Obligations)         Obligations
 Construction Quality                      2                 $80                      7             $788                 $869
 Sustainment Concerns                    11               $38,623                     5           $9,511             $48,133
 Discrepancy with                          0                  $0                      2             $238                 $238
    Requirements
 Total                                   13               $38,703                    14         $10,537              $49,240
 Source: SIGAR analysis of STANFINS, USFOR-A, PRT, ADT, and task force data; physical inspections; and project file reviews.

 Note: Totals may not add due to rounding.

The highest-cost and most complex projects that we selected were projects to construct asphalt roads
and new facilities. We found that these were most at risk or susceptible to questionable outcomes. Of
the 11 road projects we assessed, 9 were asphalt roads (about $44.6 million), which are at risk or have
resulted in a questionable outcomes due to the lack of plans and resources for their maintenance. In
addition, nearly 75 percent (about $3.5 million) of the amount obligated for facilities is at risk or has
resulted in questionable outcomes.

Table 2 is a summary of the 69 CERP projects we selected by the four project types. See appendix II for a
more detailed discussion of each of the projects.


     Table 2: CERP Projects by Project Type and Outcome (dollars in thousands)
Outcome                                                            Other              Equipment and
                        Roads                Facilities                                                          Total
Category                                                        Construction             Supplies
                 Number Obligations Number Obligations Number Obligations Number Obligations Number Obligations

 Generally             1         $81           5      $656          4        $362          9      $830        19      $1,930
  Successful
 At Risk               8    $35,827            4    $2,844           1        $33          0          0       13     $38,703
 Questionable          2      $8,920           3      $705           9       $912          0          0       14     $10,537
 Not                   0           0           5      $557          16      $1,484         2       $98        23      $2,138
          a
  Assessed
 Total               11     $44,828         17      $4,762          30      $2,791        11      $927        69     $53,308

 Source: SIGAR analysis of STANFINS, USFOR-A, PRT, ADT, and task force data.
 Notes: Totals may not add due to rounding.
 a
  We did not assess 23 projects for multiple reasons. Five were active projects for which the contract had not been
 awarded or the work was in its early stages when we conducted our inspections; 15 were completed projects that we
 could not visit (due to security concerns or remoteness of the project site) or the project files contained insufficient
 evidence for us to determine the projects’ outcomes; and 3 projects were terminated after funds had been disbursed.

Discussions of each of the CERP projects we examined follows. Many of the projects we assessed are at
risk for waste. Waste occurs when U.S. taxpayers do not receive reasonable value for their money from
U.S. government-funded activities. Most waste does not involve a violation of law; it often occurs as a
result of mismanagement or inadequate oversight.

SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                                    Page 6
Asphalt Road Projects Are at Risk for Waste
All except two of the road projects we selected—Gumain Road Rehabilitation and Charbagh Road
Rehabilitation—were asphalt roads. The nine asphalt road projects may result in waste due to
sustainment concerns and in some cases questionable construction quality. 13 These projects were
approved without adequate assurance that the Afghan government had the resources to maintain the
roads after completion. According to PRT officials, the Directors of Public Works and Rural Rehabilitation
and Development do not have resources to maintain roads, particularly asphalt roads, which require
more resources and equipment to maintain than dirt roads. The nine asphalt projects account for about
$44.6 million obligated. Most of the road projects we examined are ongoing, multiyear efforts in Mehtar
Lam. Table 3 summarizes the results of our analysis of the 11 road projects.

Table 3: Location, Status, Outcome, and Costs of Road Projects
Project Name                       Location        Status and Outcome                        Obligation      Disbursement
Alisheng Road Project              Dowlat          Active                                    $8,750,000         $5,345,220
   Phase II (25 km.)                 Shah            At Risk: Sustainment and
                                                     Construction Concerns
North Ring Road Phase I            Qarghahi        Active                                    $8,372,760         $1,961,241
   (Duranta Bypass)                                  At Risk: Sustainment
   (28.5 km.)                                        Concerns
Alisheng Road Project              Mehtar          Completed                                 $8,050,000         $8,050,000
   Phase I (23 km.)                 Lam              Questionable: Sustainment
                                                     Concerns
Mayl Valley Road (15 km.)          Alisheng        Active                                    $5,816,712         $1,053,590
                                                     At Risk: Sustainment
                                                     Concerns
Mehtar Lam Road                    Mehtar          Active                                    $5,239,214         $4,400,940
  Modernization Phase 2             Lam              At Risk: Sustainment and
  (16.8 km.)                                         Construction Concerns
Shamakat Road (11.9 km.)           Alisheng        Active                                    $4,162,877         $3,815,970
                                                     At Risk: Sustainment
                                                     Concerns
Administrative Zone Road           Mehtar          Active                                    $1,865,745         $1,554,353
  Phase II (6.3 km.)                Lam              At Risk: Sustainment
                                                     Concerns
Mehtar Lam Road                    Mehtar          Active                                    $1,459,220         $1,356,035
  Modernization Phase I             Lam              At Risk: Sustainment
  (4.7 km.)                                          Concerns
Administrative Zone Road           Mehtar          Completed                                   $870,134            $870,134
  Phase I (2.9 km.)                 Lam              Questionable: Sustainment
                                                     and Construction Concerns
Gumain Road Rehabilitation         Mehtar          Active                                      $160,169            $101,131
                                    Lam              At Risk: Sustainment
                                                     Concerns
Charbagh Road                      Qarghahi        Active                                       $81,262             $73,388
  Rehabilitation                                     Generally Successful
                                                                              Total        $44,828,093         $28,582,002
Source: SIGAR analysis of STANFINS, USFOR-A, PRT, ADT, and task force data; physical inspections; and project file reviews.


13
  The Gumain road is also at risk due to sustainment concerns. We observed a section of the road where an
improvised drainage ditch had been cut, which raised concerns whether additional damage would occur.
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                                Page 7
Most Funds Obligated for Facilities Projects Are at Risk or Resulted in Questionable Outcomes

Projects to construct or renovate facilities comprise the next largest obligation of CERP funds that we
examined (9 percent of total obligations). Seven of the 17 facilities projects are at risk or are
questionable due to sustainment concerns, discrepancies between work performed and contract
requirements, or poor construction. These 7 projects account for about $3.5 million obligated, which is
nearly 75 percent of the total amount for facilities. All of the facility projects for which we had concerns
were projects to construct new buildings.

We did not assess 5 facilities projects accounting for about 12 percent of the total amount obligated for
facilities projects that we selected. Four of these five projects were completed school projects located
in insecure or remote locations. Table 4 summarizes our results for the 17 facility projects.


Table 4: Location, Status, Outcome, and Costs of Facility Projects
Project Name                     Location   Status and Outcome                 Obligation    Disbursement
Laghman Province Center of       Mehtar     Active                             $1,252,897       $1,127,604
  Excellence                      Lam         At Risk: Sustainment
                                              Concerns
Alingar Community LEAF           Alingar    Active                               $771,463        $578,598
   (Agriculture Storage                       At Risk: Sustainment
   Facility)                                  Concerns
Qarghahi Community LEAF          Qarghahi   Active                               S771,463        $578,598
  (Agriculture Storage                        At Risk: Sustainment
  Facility)                                   Concerns
Mehtar Lam Community             Alingar    Completed                            $273,437        $273,437
 Cold Storage                                 Questionable: Sustainment
                                              Concerns
Agriculture Storage and          Mehtar     Completed                            $252,650        $252,650
  Maintenance                     Lam         Questionable: Sustainment
                                              Concerns
Social Affairs Training Center   Mehtar     Completed                            $204,390        $204,390
                                  Lam         Generally Successful
Laghman Prison Security          Mehtar     Completed                            $199,446        $199,446
  Upgrades                        Lam         Generally Successful
Sawati School                    Qarghahi   Completed                            $179,018        $179,018
                                              Questionable: Work Does Not
                                              Meet Contract Requirements
Myakhan Kac School               Qarghahi   Completed                            $172,128        $172,128
                                              Not Assessed: Insufficient
                                              Evidence and Remote
                                              Location
Mashala Kamar School             Qarghahi   Completed                            $170,787        $170,787
                                              Not Assessed: Insufficient
                                              Evidence and Remote
                                              Location
Prosecutor's Building            Mehtar     Completed                            $128,782        $128,782
  Refurbishment                   Lam         Generally Successful


SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                              Page 8
Project Name                       Location        Status and Outcome                        Obligation      Disbursement
Women's Affairs Facility           Mehtar          Active                                       $88,741             $53,245
 Upgrade and Community              Lam              Generally Successful
 Kitchen
Tilli School                       Alisheng        Completed                                    $98,365             $98,365
                                                     Not Assessed: Insufficient
                                                     Evidence and Security
                                                     Concerns
Gonapal School                     Alisheng        Completed                                    $59,081             $59,081
                                                     Not Assessed: Insufficient
                                                     Evidence and Security
                                                     Concerns
Information, Culture, and          Mehtar          Active                                       $56,298             $16,889
   Youth Directorate                Lam              Not Assessed: New Project
Nomad Affairs Conference           Mehtar          Active                                       $47,931             $32,927
  Building                          Lam              At Risk: Construction
                                                     Concerns
Agriculture Ministry Building      Mehtar          Completed                                    $35,010             $26,082
  Remodel                           Lam              Generally Successful
                                                                                  Total      $4,761,889         $4,152,026
Source: SIGAR analysis of STANFINS, USFOR-A, PRT, ADT, and task force data; physical inspections; and project file reviews.



Other Construction Projects Have Had Mixed Outcomes

Other construction projects had mixed outcomes. We grouped these projects into four sub-categories:
(1) protection walls, gabion walls, and check dams; (2) canals; (3) bridges; and (4) security walls. Most
canal projects had successful outcomes. The remaining categories had or are at risk for questionable
outcomes or were not assessed due to security concerns or remoteness of the sites.

Six of the 14 projects in the protection wall, gabion wall, and check dams sub-category had questionable
outcomes, likely due to poor construction, and the remaining 8 were not assessed. These 6 projects
represent 44 percent of the total obligations for protection wall, gabion wall, and check dam projects
that we examined. We did not assess 8 projects that account for 56 percent of the amount obligated for
this sub-category because the project files were incomplete and the projects were difficult to inspect
due to security concerns or remoteness of the sites. Table 5 summarizes our results for the
14 protection wall, gabion wall, and check dam projects.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                                Page 9
Table 5: Location, Status, Outcome, and Costs of Protection Wall, Gabion Wall, and Check Dam
Projects
Project Name                   Location   Status and Outcome             Obligation   Disbursement
Mulayan Protection Wall        Mehtar     Completed                       $226,787        $226,787
                                Lam         Not Assessed: Insufficient
                                            Evidence and Remote
                                            Location
Amin Abad Protection Wall      Qarghahi   Completed:                      $199,479        $199,479
                                            Questionable: Construction
                                            Concerns
Farooz Abad Protection Wall    Qarghahi   Completed:                      $199,413        $199,413
                                            Questionable: Construction
                                            Concerns
Alisheng Gabion Wall           Alisheng   Completed:                      $137,500        $137,500
                                            Not Assessed: Insufficient
                                            Evidence and Remote
                                            Location
Eslamabad Check Dam            Alisheng   Active                          $117,561         $29,390
                                            Not Assessed: New Project
Sangar Protection Wall         Alingar    Completed:                      $103,092        $103,092
                                            Not Assessed: Insufficient
                                            Evidence and Security
                                            Concerns
Maroof Khil Protection Wall    Qarghahi   Completed:                       $99,522         $99,522
                                            Questionable: Construction
                                            Concerns
Gamarden Bila Gabion Wall      Mehtar     Completed                        $83,105         $83,105
                                Lam         Not Assessed: Insufficient
                                            Evidence and Remote
                                            Location
Alisheng Oluswali Protection   Alisheng   Completed                        $60,390         $60,390
   Wall                                     Questionable: Construction
                                            Concerns
Upper Gomrei Check Dam         Alisheng   Completed                        $59,339         $59,339
                                            Not Assessed: Insufficient
                                            Evidence and Security
                                            Concerns
Ghunde Gabion Wall             Qarghahi   Completed                        $56,835         $56,835
                                            Questionable: Construction
                                            Concerns
Gomrei Check Dam               Alisheng   Completed                        $51,588         $36,182
                                            Not Assessed: Insufficient
                                            Evidence and Security
                                            Concerns
Dumlam Check Dam               Alisheng   Completed                        $44,415         $44,415
                                            Not Assessed: Insufficient
                                            Evidence and Security
                                            Concerns

SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                       Page 10
Project Name                       Location        Status and Outcome                        Obligation      Disbursement
Kanda Canal Check Dams             Alingar         Active                                       $32,537              $8,134
                                                     At Risk: Construction
                                                     Concerns
                                                                                  Total      $1,471,563         $1,343,583
Source: SIGAR analysis of STANFINS, USFOR-A, PRT, ADT, and task force data; physical inspections; and project file reviews.

Most canal projects that we examined had generally successful outcomes. We had concerns with two
projects—Shahi Canal Improvements and Bagasarach Canal—one due to construction and the other
because the canal had not been kept clean, even though the mayor of Mehtar Lam had signed a
maintenance agreement. Table 6 summarizes our results for the seven canal projects.

Table 6: Location, Status, Outcome, and Costs of Canal Projects
Project Name                       Location        Status and Outcome                        Obligation      Disbursement
Alikel Canal Refurbishment         Mehtar          Completed                                   $172,208            $172,208
                                    Lam              Generally Successful
Shahi Canal Improvements           Alingar         Completed                                    $83,150             $83,150
                                                     Questionable: Construction
                                                     Concerns
Badiabad Canal Intake              Alingar         Completed                                    $79,714             $79,714
                                                     Generally Successful
Bagasarach Canal                   Mehtar          Completed                                    $64,721             $64,721
                                    Lam              Questionable: Sustainment
                                                     Concerns
Domlech Irrigation Canal           Dowlat          Completed                                    $59,492             $59,492
                                     Shah            Generally Successful
Nora Kareem Canal                  Qarghahi        Active                                       $57,600                   $0
                                                     Not Assessed: New Project
Nahri Shahi Irrigation Canal       Alingar         Active                                       $51,053             $25,527
                                                     Generally Successful
                                                                                  Total        $567,938            $484,812
Source: SIGAR analysis of STANFINS, USFOR-A, PRT, ADT, and task force data; physical inspections; and project file reviews.

One of four bridge projects resulted in a questionable outcome; we did not assess the other three. The
Alisheng Oluswali Footbridge was damaged by floods after it was completed, likely due to poor
construction. Two of the four bridge projects in our sample were terminated: the Seqanwateh
Footbridge after it was destroyed by floods and the Karandali Footbridge due to improvised explosive
device activity in the vicinity. Table 7 summarizes our results for the four bridge projects.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                               Page 11
Table 7: Location, Status, Outcome, and Costs of Bridge Projects
Project Name                       Location        Status and Outcome                        Obligation          Disbursement
Mia Khan Kas Suspension            Qarghahi        Active                                      $196,861                       $0
  Bridge                                             Not Assessed: New Project
Seqanwateh Footbridge              Alisheng        Terminated                                  $124,524                $124,524
                                                     Not Assessed
Alisheng Oluswali Footbridge       Alisheng        Completed                                    $89,250                 $89,250
                                                     Questionable: Construction
                                                     Concerns
Karandali Footbridge               Alisheng        Terminated                                   $65,000                 $65,000
                                                     Not Assessed
                                                                                  Total        $475,635                $278,774
Source: SIGAR analysis of STANFINS, USFOR-A, PRT, ADT, and task force data; physical inspections; and project file reviews.

The security wall projects had incomplete files and were difficult to inspect due to security concerns or
project site remoteness. We questioned the outcome of the Provincial Council Security Wall because of
discrepancies between the work we observed and the contract requirements. In addition, the building
the wall surrounds appeared to have been occupied by squatters and not used as intended. The Busram
School Wall project was terminated due to security concerns, but before termination, the contractor
stopped work because of a dispute between the education department and the local villagers. Table
8 summarizes our results for the five security wall projects.


Table 8: Location, Status, Outcome, and Costs of Security Wall Projects
Project Name                       Location        Status and Outcome                        Obligation      Disbursement
Parwai Girls School I              Alingar         Completed                                    $60,000             $60,000
  Boundary Wall                                      Not Assessed: Insufficient
                                                     Evidence and Security
                                                     Concerns
Parwai Girls School II             Alingar         Completed                                    $60,000             $60,000
  Boundary Wall                                      Not Assessed: Insufficient
                                                     Evidence and Security
                                                     Concerns
Mandrawar Girls Primary            Qarghahi        Completed                                    $59,500             $59,500
 School Wall                                         Not Assessed: Insufficient
                                                     Evidence and Remote
                                                     Location
Provincial Council Security        Mehtar          Completed                                    $59,432             $59,432
  Wall                              Lam              Questionable: Work Does Not
                                                     Meet Contract Requirements
Busram School Wall                 Mehtar          Terminated                                   $37,039             $37,039
                                    Lam              Not Assessed
                                                                                  Total        $275,971            $275,971
Source: SIGAR analysis of STANFINS, USFOR-A, PRT, ADT, and task force data; physical inspections; and project file reviews.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                               Page 12
Equipment Projects and Projects to Purchase Agricultural Supplies Were Generally Successful

The equipment purchase projects that we examined generally resulted in successful outcomes. Most of
these projects were under $100,000. We categorized the outcome as successful if we found sufficient
evidence in the project file that the equipment was purchased. We inspected two of the three projects
with the highest obligations in this category—Rehabilitate Mehtar Lam Power Plant and State Radio
Tower Upgrade—and the equipment was being used as intended. Table 9 summarizes the results of the
eight equipment projects.


Table 9: Location, Status, Outcome, and Costs of Equipment Projects
Project Name                       Location        Status and Outcome                        Obligation      Disbursement
Laghman Rule of Law Office         Mehtar          Completed                                   $127,840            $127,840
  Equipment                         Lam              Generally Successful
Rehabilitate Mehtar Lam            Mehtar          Active                                      $123,700             $40,000
  Power Plant                       Lam              Generally Successful
State Radio Tower Upgrade          Dowlat          Completed                                   $121,594            $121,594
                                     Shah            Generally Successful
Hajiabad/Ghaziabad Hydro           Alisheng        Completed                                    $78,155             $78,155
  Electric Village                                   Generally Successful
  Rehabilitation
Mehtar Lam City Power              Mehtar          Completed                                    $58,504             $58,504
 Transmission Repair                Lam              Generally Successful
 Supply of Goods
Arani Water Distribution           Alisheng        Completed                                    $55,000             $55,000
                                                     Not Assessed: Insufficient
                                                     Evidence and Remote
                                                     Location
Sorkahkan Pump House               Qarghahi        Active                                       $42,522                   $0
                                                     Not Assessed: Just Started
Nomad Affairs Center –             Mehtar          Completed                                    $42,256             $42,256
  Power                             Lam              Generally Successful
                                                                                  Total        $649,571            $523,349
Source: SIGAR analysis of STANFINS, USFOR-A, PRT, ADT, and task force data; physical inspections; and project file reviews.

The agricultural supplies projects we selected were generally successful. Based on our inspections and
reviews of the project files, it appeared that the supplies were purchased and used as intended. Table 10
summarizes the results of agricultural supplies projects.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                               Page 13
Table 10: Location, Status, Outcome, and Costs of Agricultural Supply Projects
Project Name                       Location        Status and Outcome                        Obligation      Disbursement
Alingar Saffron Project            Alingar         Active                                      $112,760             $98,960
                                                     Generally Successful
Mehtar Lam Saffron Project         Mehtar          Active                                      $101,530             $75,840
                                    Lam              Generally Successful
Agriculture Sapling                Mehtar          Completed                                    $63,425             $63,425
  Protectors                        Lam              Generally Successful
                                                                                  Total        $277,715            $238,225
Source: SIGAR analysis of STANFINS, USFOR-A, PRT, ADT, and task force data; physical inspections; and project file reviews.




OVERSIGHT WEAKNESSES, SEPARATE PLANNING FOR RELATED PROJECTS, AND INADEQUATE
PERFORMANCE MONITORING INCREASED RISKS OF QUESTIONABLE OUTCOMES AND
POTENTIAL WASTE

In Laghman Province, CERP funds were not managed in accordance with standard operating procedures
that provide for oversight of project files and financial databases. For example, the CERP contract for the
Alisheng Road Phase 1 project was not signed by a warranted contracting officer, which resulted in an
unauthorized commitment of more than $8 million for the U.S. government. In addition, two groups of
related projects were approved individually but appeared more in line with large-scale development
efforts rather than small-scale projects. The related projects all had sustainment concerns and the
immediate benefits of these related projects are unclear. Finally, USFOR-A has in place aspects of a
performance monitoring framework to identify CERP project benefits, but it lacks a coordinated and
results-oriented approach to determine whether CERP projects have achieved their intended goals, are
being used as intended, and are being sustained by the government of Afghanistan.

Oversight Weaknesses over CERP Funds

The CERP project files and financial databases we reviewed did not all contain evidence of certain
internal controls, which could lead to the mismanagement of funds. CERP standard operating
procedures establish internal controls to ensure accountability for CERP funds; therefore, CERP project
files and financial systems should contain evidence that these controls were followed. However, we
identified examples of non-compliance with CERP procedures.

All CERP project files are required to contain evidence that CERP oversight officials followed the internal
controls established by CERP’s standard operating procedures, including (1) initial project approval
documents, such as a justification for the project and a commander’s approval to commit funds; (2) a
project statement of work; (3) a legal review; and (4) evidence to substantiate payments. We found that
the 69 project files generally contained the initial project documentation and statements of work, but
most lacked legal reviews and contained insufficient evidence to substantiate payments.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                               Page 14
Examples of oversight weaknesses in the project files included:

     •   $8 million unauthorized commitment: Most CERP projects are awarded by project purchasing
         officers; however, CERP standard operating procedures require warranted contracting officers
         to award contracts that cost $500,000 or greater. The Alisheng Road Phase 1 project was
         administered by the Laghman purchasing officer and was not signed by a warranted contracting
         officer, which resulted in an unauthorized commitment of more than $8 million. An
         unauthorized commitment is a financial commitment that is not binding because the official
         who made it lacked the authority to enter into the agreement on behalf of the U.S. government.
         Project purchasing officers have less training than warranted contracting officers, who have at
         least one year of experience and are required to take a significant amount of classroom training
         before they are allowed to award contracts.
     •   $4 million in unsupported costs: For each payment made, CERP standard operating procedures
         require two forms of support: an invoice and a Materials Inspection and Receiving Report (also
         known as Form DD250). Thirty-five of the project files (over $11 million in disbursements) we
         reviewed had incomplete financial documentation; the files did not contain both an invoice and
         a Materials Inspection and Receiving Report for one or more payments made. Fifteen of these
         47 projects had over $4 million in disbursements without either the invoice or the Materials
         Inspection and Receiving Report in the project file.
     •   $8.9 million obligated without documented legal reviews: Three projects in our sample,
         representing $8.9 million obligated, did not contain evidence that a legal review had been
         conducted. CERP authorizing legislation and implementing regulations give commanders
         flexibility in responding to urgent humanitarian relief and reconstruction requirements. To help
         ensure that commanders use CERP for authorized purposes, CERP standard operating
         procedures require commanders to obtain legal reviews for proposed projects. The absence of a
         legal review increases the risk that the proposed project does not meet statutory and regulatory
         requirements for the expenditure of CERP funds.
     •   $9.1 million disbursed with incomplete documentation of project monitoring: Forty files,
         representing $9.1 million in disbursements, contained minimal evidence that project monitoring,
         such as quality control and quality assurance reports, had occurred. According to the U.S.
         Government Accountability Office, properly managing and overseeing contractor performance is
         an essential element for achieving good acquisition outcomes. 14 CERP standard operating
         procedures applicable to projects in our sample required CERP oversight officials to ensure that
         proper quality assurance measures were in place for all projects. As CERP standard operating
         procedures were updated, CERP project monitoring requirements became more stringent. The
         most recent draft, dated November 2010, requires CERP oversight officals to conduct quality
         assurance assessments for projects costing more than $50,000 and to document the results of
         the assessments in the Combined Information Data Network Exchange, which is the official
         program database for CERP.




14
  Stabilizing and Rebuilding Iraq: Actions Needed to Address Inadequate Accountability over U.S. Efforts and
Investments, GAO-08-568T, March 11, 2008.
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                   Page 15
Related Projects in Laghman Province Were Approved Individually; Immediate Benefits of
Related Projects Are Unclear

CERP’s purpose is to enable commanders to respond to urgent humanitarian relief and reconstruction
requirements within their areas of responsibility by carrying out small-scale projects that immediately
assist the indigenous population. 15 However, CERP has been used for large-scale projects. Out of the
69 CERP projects we examined, the majority of CERP funds were obligated for multimillion dollar road
projects. The 69 projects included two groups of related projects that were approved individually but
appeared more in-line with large-scale development efforts: the Mehtar Lam administrative zone
projects and Laghman agricultural storage and maintenance projects. As SIGAR previously reported,
large-scale projects typically require several years to complete and require CERP oversight officials to
devote significant amounts of time and resources to monitor their completion. 16 However, CERP
oversight officials rotate frequently and have been trained to implement smaller-scale projects. In
Laghman Province, we identified sustainment concerns for the majority of these related projects. In
addition, the related projects did not appear to meet an urgent need or provide an immediate benefit.

     •   Mehtar Lam administrative zone projects: Six projects totaling more than $4 million in
         obligations were related to an economic development effort to re-locate most of the
         governmental, educational, and medical facilities in Mehtar Lam from their current location in
         the city center to a sparsely populated area outside of Forward Operating Base Mehtar Lam.
         According to PRT officials, the rationale for these projects was to allow further expansion and
         economic development for the city. The 6 projects include Administrative Zone Road Phase II
         (about $1.9 million); Laghman Province Center of Excellence (about $1.3 million); Administrative
         Zone Road Phase I (about $0.9 million); Information, Culture, and Youth Directorate renovation
         ($56,298); Nomad Affairs Conference Building ($47,931); and Nomad Affairs Center power
         project ($42,256). 17 We were unable to determine how the projects address an immediate need
         or provide immediate benefits to the local population. The individual projects that exceeded
         $1 million were approved in 2008 and 2009. The PRT officials who were involved in the decisions
         to fund the projects rotated before we began our review, and the files contained minimal
         evidence to document why the projects were selected. According to current PRT officials,
         allegations of corruption—related to the sale of land—have been made against the previous
         governor of Laghman. We could not independently verify the authenticity of these allegations,
         since the project files did not include land-use agreements. However, the project files contained
         evidence that the original scope of the Administrative Zone Phase II road project was changed
         due to a land dispute between the Afghan National Army and the Provincial Governor. The PRT
         intervened and relocated sections of the road to other parts of the city.
     •   Laghman agriculture storage and maintenance projects: More than $2 million has been
         obligated for 4 agricultural storage projects: the Mehtar Lam Community Cold Storage project
         ($273,437), the Agriculture Storage and Maintenance project ($252,650), the Laghman
         Empowerment Agricultural Facility project in Alingar ($771,463), and the Laghman

15
  Starting in September 2008, CERP standard operating procedures generally defined “small-scale” as any project
less than $500,000 and “urgent” as any chronic or acute inadequacy of an essential good or service that, in the
judgment of a local commander, calls for immediate action.
16
 SIGAR, Increased Viability, Monitoring, and Planning Needed for Commander’s Emergency Response Program in
Afghanistan, SIGAR Audit-09-5, Sept. 9, 2009.
17
  The area also includes two projects that were not in our sample: a fire house and a Women’s Affairs
demonstration garden. According to PRT officials, these projects were constructed using U.S. funds and have not
been used as intended.
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                 Page 16
         Empowerment Agricultural Facility in Qarghahi ($771,463). The Mehtar Lam Community Cold
         Storage project and Agriculture Storage and Maintenance project were completed in June 2010
         but have not been transferred to the Government of Afghanistan because a sustainment
         agreement was not in place. The PRT awarded the projects, and the ADT is working with the
         Director for Agriculture, Irrigation, and Livestock to sign a contract with a private business to
         operate the two completed facilities in Mehtar Lam. A similar agreement will need to be
         reached for the ongoing projects in Alingar and Qarghahi to ensure that the Afghan government
         sustains the projects after they are transferred. The investment made for these two facilities is
         at risk until such an agreement is finalized. In addition, the fact that the completed buildings are
         not used as intended calls into question the projects’ immediate benefits. A Center for Army
         Lessons Learned handbook, Commander’s Emergency Response Program: Tactics, Techniques,
         and Procedures (March 2008), suggests that commanders should request, or conduct for
         themselves, an assessment of local conditions before investing financial resources into potential
         relief and reconstruction programs. This was not done but may have provided a better
         understanding of Afghan government’s capacity to use and maintain the projects after
         completion.

Most of these projects were approved in 2008 and 2009. In 2010, Commanders in Laghman did not use
CERP funds on new facilities and new large-scale development projects. Instead, they leveraged CERP as
a means of engaging local Afghan government officials. For example, under the Capacity Building Fund
(CBF) initiative, PRT and ADT mentors give the provincial line directors a notional budget to plan
projects, and the directors must provide a 1-year strategy for using the budget. 18

USFOR-A Lacks a Coordinated, Results-Oriented Approach for Evaluating the Effectiveness of
CERP Projects

Commanders and CERP oversight officials lack a coordinated, results-oriented approach to determine
whether CERP projects have achieved their goals, are being used as intended, and are being sustained
by the government of Afghanistan. USFOR-A has aspects of a performance monitoring framework in
place, but improvements are needed to determine whether CERP projects are achieving their desired
effects. 19

The U.S. Government Accountability Office has reported on the value of using a results-oriented
approach to guide and evaluate the performance of agency operations. 20 Under such an approach,
commanders at all levels would have the data needed to assess CERP project outcomes, determine
whether projects meet the program’s intent, and determine whether CERP funds are being used in a

18
  As part of the CBF initiative, no funds are transferred and no contracting authorities are given to Afghan
government entities.
19
  Other oversight institutions also have reported on weaknesses in USFOR-A’s assessment of CERP outcomes. The
U.S. Army Audit Agency recommended that USFOR-A take action to improve aspects of its performance monitoring
system for CERP. The Assistant Secretary of the Army (Financial Management and Comptroller) agreed with the
report’s findings and recommendations. See U.S. Army Audit Agency, Commander’s Emergency Response
Program: U.S. Forces-Afghanistan, A-2011-0020-ALL, Nov. 16, 2010. Also, the U.S. Government Accountability
Office recommended that the Secretary of Defense require impact evaluations for CERP-funded road projects. See
GAO, Afghanistan Reconstruction: Progress Made in Constructing Roads, but Assessments for Determining Impact
and a Sustainable Maintenance Program Are Needed, GAO-08-689, July 2008.
20
  See GAO, Executive Guide: Effectively Implementing the Government Performance and Results Act, GGD-96-118,
Jun. 1996; GAO, Military Operations: Actions Needed to Better Guide Project Selection for Commander’s Emergency
Response Program and Improve Oversight in Iraq, GAO-08-736R, Jun. 23, 2008.
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                       Page 17
fiscally responsible manner. The Government Performance and Results Act of 1993 21 outlines criteria for
a program evaluation framework: (1) results-oriented goals; (2) balanced performance measures to
mark progress toward goals; and (3) procedures to collect, analyze, and report on performance data.

USFOR-A includes the commander’s goals for CERP in Afghanistan in a quarterly report to the Under
Secretary of Defense (Comptroller). For fiscal year 2011, these goals describe the USFOR-A commander’s
intent to emphasize small-scale projects, distribute funding authority to field commanders, improve pre-
deployment training, and involve Afghan officials in construction projects. These goals are not results-
oriented because they focus on the process of awarding and executing CERP projects rather than on the
projects’ impact.

DOD’s FMR identifies standard measures of effectiveness for CERP such as (1) the number of Afghans
employed on the project, (2) the number of Afghans benefitting economically from the project, and (3) a
description of the project’s benefits for the local population, among other data. The regulations require
CERP project managers to document standard measures of effectiveness during the approval process,
regardless of the project’s dollar value. The project files we reviewed primarily included estimates of the
number of Afghans who will be employed or the number of Afghans who will benefit economically;
however, the project files did not contain evidence to support the development of these estimates. The
project files also included statements of anticipated project effects.

During the period covered by our review, CERP oversight officials at the USFOR-A level and in Laghman
Province did not have formal mechanisms in place to track and assess project outcomes. Instead, CERP
oversight officials in Laghman Province relied on anecdotal information from villagers to report
problems with completed projects.

In August 2010, the International Security Assistance Force Joint Command drafted a strategy to
determine the effectiveness of CERP expenditures. The draft strategy defines a successful CERP project
as one that achieves counterinsurgency effects, which the draft documents defines as:

           •    sustainable,
           •    easily executed,
           •    timely,
           •    employing Afghans,
           •    supported by the Afghan government, and
           •    managing expectations.
The draft strategy requires regional commanders to develop CERP plans to (1) identify projects that
meet the needs of local Afghans, Afghanistan government initiatives, and the USFOR-A Commander’s
goals for the fiscal year and (2) assess the impact of projects.

In addition, USFOR-A has drafted an update to the CERP standard operating procedures, which was in
the approval process as of December 2010. The updated draft procedures require CERP oversight
officials to conduct quality assurance reviews after CERP projects have been completed to ensure the
projects are being sustained and are achieving their desired objectives. 22 Under these new procedures,
CERP officials will be required to collect data on (1) local Afghan employment opportunities created by

21
     P.L. 103-62.
22
  The draft standard operating procedures require project officers to prepare quality assurance reports 60 days,
120 days, and 365 days after CERP projects have been completed.
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                  Page 18
the project, (2) the government of Afghanistan’s satisfaction of the project, (3) satisfaction of
community leaders, and (4) the number of attendees, users, or locals who experienced benefits from
the project. It is too early to assess the impact the draft CERP strategy and the draft standard operating
procedures will have on program oversight.


CONCLUSION

Our analysis shows 27 of 69 CERP projects in Laghman Province are at risk or have questionable
outcomes. Many of these projects were high-dollar value, representing about $49.2 million, or
92 percent of the total obligations we reviewed, and may result in waste. Large-scale projects, such as
roads and groups of related infrastructure projects, were approved without adequate assurance that the
government of Afghanistan had the resources needed to operate and maintain them. Moreover, the
overall effect of CERP in achieving the intended goals of the program is unknown because commanders
and CERP officials lack results-based data to determine whether CERP projects are successful and can be
sustained. These issues raise questions about the adequacy of CERP oversight and the capacity of the
Afghanistan government to sustain CERP projects after they are completed. Without better oversight
and plans for sustainment, the United States’ investment is at risk for waste and the Afghan people may
not receive the projects' intended benefits.


RECOMMENDATIONS

To improve CERP oversight and promote the sustainment of CERP projects in Laghman Province, we
recommend that the USFOR-A commander direct the commanders of the PRT, ADT, or Task Force to:

    1. Develop approaches to improve the construction quality and sustainment plans for active CERP
       projects; or consider terminating or de-scoping active CERP projects and re-obligating the funds
       for better use, if it is in the best interest of the government to do so;
    2. Require contractors to repair any defective work, for completed projects that are still under
       warranty; and,
    3. Work with government of Afghanistan officials to develop sustainment plans for CERP projects
       that are completed and have not been sustained. USFOR-A should consider identifying steps for
       Afghanistan government officials in Laghman Province to take to sustain projects that have been
       transferred to their authority, prior to the commitment of additional CERP projects.

To better identify CERP-funded large-scale development efforts and ensure sustainment plans for these
projects, we recommend that the USFOR-A commander:

    4. Update CERP standard operating procedures to include criteria that would help field
       commanders determine when groups of CERP projects should be considered related for project
       planning and approval purposes.

To help determine whether CERP projects have met their intended outcomes and the purposes of CERP,
we recommend that the USFOR-A commander:

    5. Develop a coordinated, results-oriented approach for evaluating the effectiveness of CERP
       projects. Such an approach should include goals that are objective, quantifiable, and
       measurable; criteria to define a successful CERP outcome; balanced performance measures to

SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                           Page 19
        mark progress toward the goals; and procedures to collect, analyze, and report on performance
        data both during project execution and after project completion.


COMMENTS

U.S. Forces-Afghanistan (USFOR-A) provided comments on a draft of this report. The comments are
reproduced in appendix IV. USFOR-A generally concurred with our findings and recommendations and
stated that our recommendations, if properly executed, will ensure a more successful CERP program
while protecting U.S. taxpayer dollars. USFOR-A also outlined actions that would address these
recommendations, including:

        •   seeking input from local Afghans to include local building practices into project statements
            of work;
        •   enforcing contract warranties and withholding final payments until all deficiencies have
            been corrected;
        •   working with district and provincial Ministry of Public Works to develop a budgeting
            mechanism for sustainment;
        •   requiring commanders to review CERP databases before initiating projects to avoid
            duplication of efforts that wastes resources; and
        •   developing outcome-based assessments following project completion.
USFOR-A noted that it faces challenges in fully implementing the recommendations of this report,
including:

        •   limited capacity of local contractors,
        •   limited time or resources for project managers to supervise the construction, and
        •   lack of budgeting mechanisms within the government of Afghanistan to fund recurring
            operations and maintenance costs.
USFOR-A also provided technical comments, which we have incorporated where appropriate. In
addition, in January 2011, USFOR-A provided copies of missing project documents that were not made
available by CERP officials during the course of our audit. As a result, we updated our findings regarding
oversight weaknesses over CERP funds. The challenges we faced in obtaining complete and accurate
information during the course of our audit are due, in part, to the fact that USFOR-A has not maintained
centralized record keeping systems, which limits USFOR-A’s monitoring and reporting capabilities.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                           Page 20
APPENDIX I: SCOPE AND METHODOLOGY

This report presents the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) review of Commander’s Emergency Response Program (CERP) projects in
Laghman Province, Afghanistan. SIGAR initiated this audit to examine the funding, outcomes, and
oversight of selected CERP projects in Laghman Province, Afghanistan, that were approved in fiscal years
2008 through 2010. Specifically, our objectives were to (1) assess the projects’ status, including funds
obligated and disbursed and whether the projects were meeting intended outcomes and, if applicable,
were being sustained; and (2) determine whether project oversight by U.S. officials was in accordance
with applicable guidance.

To address these objectives, we selected 69 CERP projects to evaluate. As of November 13, 2010, the
total obligations for the 69 selected projects exceeded $53.3 million, and the total disbursements
exceeded $35 million.

We chose Laghman Province because, among other factors, it had the highest average project cost of
the provinces in RC-E. Initially, we grouped CERP project data from USFOR-A’s Combined Information
Data Network Exchange database by regional command, and noted that Regional Command-East (RC-E)
had the highest dollar value for all CERP projects approved in Afghanistan between 2008 and 2010. 23
Within RC-E, Nangahar Province had the highest dollar value of all provinces, but we excluded Nangahar
because SIGAR had ongoing audit work in that province, and the audit team did not want to duplicate
efforts. 24 We selected CERP projects in Laghman Province that were

     •   approved in fiscal years 2008 through 2010;
     •   committed for $50,000 or greater, since this is the threshold at which CERP regulations and
         operating procedures require detailed project justifications, coordination with government of
         Afghanistan representatives, and documentation that those representatives agree to sustain the
         projects; and
     •   awarded by the Laghman Provincial Reconstruction Team (PRT), Laghman Agribusiness
         Development Team (ADT), or the various task forces (Iron Gray, Wild Horse, and Bayonet) that
         were co-located with the Laghman PRT.

In addition to cost considerations, the selection included a mix of active, completed, and terminated
projects across the 20 categories of CERP assistance for which the use of CERP funds is permitted, as
outlined in DOD’s Financial Management Regulation. 25 Since we selected the projects we assessed on a
judgmental basis, we cannot draw inferences to the entire population of CERP projects in Afghanistan.
The following analyses formed the basis of our observations and findings. 26


23
 In a previous CERP report, SIGAR found the data in CIDNE to be unreliable; however, CIDNE was the best
available source for the purpose of selecting our judgment sample.
24
 See Weaknesses in Reporting and Coordination of Development Assistance and Lack of Provincial Capacity Pose
                                                                             .
Risks to U.S. Strategy in Nangarhar Province, SIGAR-Audit-11-1, Oct. 26, 2010
25
 DOD, Financial Management Regulation 7000.14-R, volume 12, chapter 27, Commanders’ Emergency Response
Program (January 2009).
26
  The Special Inspector General for Iraq Reconstruction used a similar methodology in its review of a collection of
CERP projects at the Baghdad International Airport. See Commander’s Emergency Response Program: Projects at
Baghdad International Airport Provided Some Benefits, but Waste and Management Problems Occurred,
SIGIR 10-013, April 26, 2010.
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                    Page 21
To determine the costs of the projects we selected for review, we analyzed obligation and disbursement
data from contract documents in the project files and financial data from the Department of the Army’s
Standard Finance System (STANFINS) and U.S. Forces-Afghanistan’s CERP checkbook. To assess the
reliability of the computer-processed data, we (1) interviewed USFOR-A officials to discuss the reliability
of the data; (2) conducted electronic testing and checked for missing data, erroneous entries, and
duplicates; and (3) compared the financial system’s output with the documents in the project files, such
as invoices, receiving reports, and other payment documents. On the basis of our reliability
assessments, we determined that the data were sufficiently reliable to meet the audit’s objectives.
Specifically, the data reported to us from STANFINS were sufficiently reliable for reporting obligations
and disbursements for the projects in our sample when corroborated with financial data from the
project files, and the data reported to us from the CERP checkbook were sufficiently reliable for the
purposes of illustrating the magnitude of CERP obligations in Laghman province.

To determine project outcomes, we conducted file reviews for all 69 projects and site visits for 36 of the
69 projects we selected. Not all of the files contained sufficient evidence for us to make an assessment,
and we were unable to visit all of the project sites; however, by conducting file reviews and site visits,
we were able to assess the outcomes of 46 of the 69 projects we selected. For the file reviews, we
analyzed quality assurance reports and additional documents in the project files that listed the projects’
requirements (such as the contracts and statements of work) and described the conditions of the
projects. We conducted our site visits from September 26 through 29, 2010. The 36 projects we visited
represented $39.8 million (nearly 75 percent) of the $53.3 million obligated for the 69 projects in our
selection. We were aware that we would be unable to visit every project site. Consequently, we
coordinated with key personnel at the PRT, ADT and the task force and gave them criteria to consider
when scheduling site visits, such as project costs, security of the area, and remoteness of the project site.
We asked them to prioritize the most expensive projects where security concerns would not prohibit us
from visiting the project site and where the project locations were not too remote (some sites would
take all day to reach). The PRT, ADT and task force identified 27 of the 69 projects that (1) were in areas
that were too insecure to visit, (2) were too remote to visit in the time allotted, or (3) were eliminated
for other reasons such as the projects were similar to other projects on the site visit schedule.
Additionally, we could not visit 6 of the 42 project sites we planned to visit, primarily due to security
concerns.

To present our analysis of project outcomes, we grouped the projects by completion status and sub-
grouped the projects by their outcomes. Table 1 of appendix II outlines our rationale for the categories
we developed to group our analysis.

Our analysis did not take into account other factors that may determine a successful counterinsurgency
outcome, such as the perceived legitimacy of the government of Afghanistan, measures of corruption,
differences in economic growth, or the number of insurgent attacks, because such assessments are
beyond the scope of our review. Additionally, counterinsurgency guidance suggests that CERP projects
should help promote stability in insecure areas. 27 However, we did not attempt to assess project
outcomes on this basis because such an analysis would require us to make decisions about military
intelligence that are not in the scope of our audit responsibilities. 28


27
   Army Field Manual 3-24, Counterinsurgency, (Dec. 2006) outlines successful operational practices for a
counterinsurgency, such as: focus on the population, its needs, and its security; establish and expand secure areas;
isolate insurgents from the populace; and deny sanctuary to insurgent.
28
  We were unable to visit 14 of the projects, having a total obligation of nearly $6.9 million, due to security
concerns.
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                      Page 22
To assess USFOR-A’s and field commanders’ oversight of the selected projects, including internal
controls and accountability mechanisms in place to safeguard CERP funds, we reviewed relevant laws,
regulations, standard operating procedures, and other guidance related to CERP. Additionally, we
reviewed the completeness of the selected project files, USFOR-A’s financial database and electronic
project management database, and the Army’s Standard Finance System. Due to time and resource
limitations, we did not conduct our internal controls assessment or track every requirement in the CERP
regulations and standard operating procedures. Instead, we adhered to the general principles outlined
in SIGAR’s guidelines for conducting audits of contracts, and we limited our review to primary
documents and other evidence that addressed our research objectives. In addition, we conducted
interviews with U.S. officials involved with project planning, administration, and oversight. We also
interviewed the Provincial Governor of Laghman and other Laghman government officials who were on-
site during our site visits. Over the course of the audit, as appropriate, we also reviewed planning
documents and documents that outline commanders’ goals for CERP in Afghanistan. We identified
internal control weaknesses, which we present in the body of the report.

We conducted this review from July 2010 to December 2010 in Kabul and Laghman Province,
Afghanistan, in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives. This audit was conducted by the Special Inspector General for Afghanistan Reconstruction
under the authority of Public Law No. 110-181, as amended, and the Inspector General Act of 1978, and
the Inspector General Act of 2008.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                        Page 23
APPENDIX II: CERP PROJECTS REVIEWED THROUGHOUT LAGHMAN PROVINCE

This appendix summarizes the costs, outcomes, and other project data for the Commander’s Emergency
Response Program (CERP) projects we selected for review throughout Laghman Province. Our sample
includes all CERP projects with an initial commitment of $50,000 or greater that were approved by the
Provincial Reconstruction Team (PRT), Agribusiness Development Team (ADT), or various task forces
located at Forward Operating Base Mehtar Lam 29 during fiscal years 2008 through 2010. The 69 projects
we selected include 24 active, 42 completed, and 3 terminated projects; the total obligation was about
$53.3 million, of which $35.8 million had been disbursed as of November 2010.

CERP standard operating procedures 30 establish criteria for selecting projects and determining the
appropriateness of proposed projects; however, the procedures do not define a successful CERP
outcome. To develop our criteria for categorizing project outcomes, we took into account the purpose
of CERP, as defined in the standard operating procedures, which is to enable commanders to respond to
urgent humanitarian relief and reconstruction requirements within their area of responsibility by
carrying out programs that will immediately assist the indigenous population. Starting in September
2008, CERP procedures defined “urgent” as any chronic or acute inadequacy of an essential good or
service that, in the judgment of the local commander, calls for immediate action. The procedures
updated on or after September 2008 also indicate that CERP is intended for projects that can be
sustained by the local population or government and cost less than $500,000.

To determine project outcomes, we relied primarily on reviews of documents in the project files and
physical inspections we conducted during site visits. For all 69 projects we selected, we reviewed quality
assurance reports and other documents in the project files that stated the projects’ requirements and
described their conditions. Also, from September 26 through 29, 2010, we visited 36 of the 69 projects
in Laghman; these represented $39.8 million (nearly 75 percent) of the amount obligated for all 69
projects we selected.

Using this approach, we assessed the outcomes of 46 projects in our sample. We grouped the projects
by completion status (active and completed). Within each category, we grouped the projects into sub-
categories according to project outcome:

        •   Active projects                                      •    Completed projects
             Generally successful outcome to date                     Generally successful outcome
             At risk                                                  Questionable outcome

We did not assess 23 of the sample projects. These 23 projects had a total obligation of about
$2.1 million and include 5 active projects (about $500,000 obligated) where the contract had not been
awarded or the work performed was in early stages when we conducted our inspections in
September 2010; 15 completed projects (about $1.4 million obligated) where we could not inspect the
project due to security concerns or remoteness of the project site and the project files contained
insufficient evidence for us to determine the projects’ outcomes; and 3 projects (about $200,000
obligated) that were terminated after funds had been disbursed.

29
     The municipality of Mehtar Lam is the provincial capital of Laghman.
30
  Our review included projects that were approved in fiscal years 2008 through 2010. The applicable CERP
standard operating procedures include Money as a Weapon System—Afghanistan, USFOR-A Publication 1-06,
updated December 2009 and May 2009; Commander’s Emergency Response Program Standard Operating
Procedures, Combined Joint Task Force—101, updated September 2008; and Commander’s Emergency Response
Program Standard Operating Procedures, Combined Joint Task Force—9, updated October 2007.
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                               Page 24
Table I outlines the criteria we used to determine CERP project outcomes.


    Table I: SIGAR Criteria for Determining CERP Project Outcomes
    Outcome
    Categories       Outcome Criteria by Project Status
                     Criteria for Active Projects
    Generally        • Work performed is consistent with statement of work requirements,
      Successful     • Project does not appear to have construction deficiencies, and
                     • Government of Afghanistan has a plan to sustain project after transfer
    At Risk          • Work performed is inconsistent with statement of work requirements,
                     • Project has construction deficiencies or SIGAR is concerned with construction quality,
                     • Government of Afghanistan does not have a sustainment plan in place for the project
                       after transfer, or
                     • Immediate need for the project and benefit to the population are unclear
    Not Assessed     • Project was in its initial stages and minimal site work had been conducted at the time
                       of our review
                     Criteria for Completed Projects
    Generally        • Work performed is consistent with statement of work requirements,
      Successful     • Project does not appear to have construction deficiencies, and
                     • Government of Afghanistan has sustained the project
    Questionable     • Work performed is inconsistent with statement of work requirements,
                     • Project has construction deficiencies or SIGAR is concerned with construction quality,
                     • Government of Afghanistan has not sustained project after its transfer, or the
                       government of Afghanistan does not have a plan to sustain the project, or
                     • Immediate need for the project and benefit to the population are unclear
    Not Assessed     • SIGAR was unable to observe project outcome due to security concerns or remoteness
                       of the project site, and
                     • Project file included insufficient evidence to assess the outcome (e.g., poor
                       documentation of quality assurance reviews conducted)
                     Criteria for Terminated Projects
    Generally        • N/A
      Successful
    Questionable     • N/A
    Not Assessed     • Funds were expended but project was terminated
    Source: SIGAR developed criteria based on CERP standard operating procedures and other factors.

Because CERP regulations allow commanders to fund projects using 20 broadly defined categories of
assistance, we considered projects to meet the intent of CERP unless we had strong evidence to the
contrary. We questioned the outcomes of two groups of related projects that were related to larger-
scale development efforts, where the immediate needs for the projects and the benefits to the local
population were unclear.

We were unable to observe 14 of the projects, having a total obligation of nearly $6.9 million, due to
security concerns. Counterinsurgency guidance suggests that CERP projects should help promote


SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                 Page 25
stability in insecure areas. 31 However, we did not attempt to assess project outcomes based on this
rationale because such an analysis would require us to make decisions about military intelligence that
are not in the scope of our audit responsibilities. 32 Additionally, our analysis also does not take into
account other factors that may determine a successful counterinsurgency outcome, such as the
perceived legitimacy of the government of Afghanistan, measures of corruption, differences in economic
growth, or the number of insurgent attacks, because such assessments are beyond the scope of our
review.

Table II summarizes our findings.


     Table II: Summary of Selected CERP Project Outcomes by Project
     Completion Status
                                                                              Obligation
     Outcome Categories                           Number                      (in millions)
     Active Projects
       Generally Successful Outcome                                  6                      $0.6
       At Risk                                                      13                  $38.7
       Outcome Not Assessed                                          5                      $0.5
     Total Active                                                   24                  $39.8
     Completed Projects
       Generally Successful Outcome                                 13                      $1.4
       Questionable Outcome                                         14                  $10.5
       Outcome Not Assessed                                         15                      $1.4
     Total Completed                                                42                  $13.3
     Terminated Projects
       Outcome Not Assessed                                          3                      $0.2
     Total Active, Completed, and                                   69                  $53.3
       Terminated
     Source: SIGAR analysis of STANFINS, USFOR-A, PRT, ADT, and task force data; physical
     inspections; and project file reviews.

We discuss each of the projects, in descending order of obligation, by completion status, and by
outcome category within each status group.




31
  Army Field Manual 3-24 (Dec. 2006), Counterinsurgency, outlines successful operational practices for a
counterinsurgency, such as focusing on the population, its needs and security; establishing and expanding secure
areas; isolating insurgents from the populace; and denying sanctuary to insurgents.
32
  We were unable to visit 14 of the projects, totaling nearly $6.9 million in obligated funds, due to security
concerns.
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                         Page 26
ACTIVE PROJECTS

As of November 2010, 24 of 69 projects, representing $39.8 million (74.6 percent) of total obligations,
were active. Of the 24 active projects, we found that 6 were generally successful and 13 were at risk for
unsuccessful outcomes. We did not assess 5 of the active projects because contracts had not been
awarded or work had just been initiated.

Active Projects – Generally Successful Outcome

We determined that 6 of the active projects were likely to have generally successful outcomes, as of
November 2010. These projects have a total obligation of about $600,000, which is 1 percent of total
obligations for the projects in our review.


Rehabilitate Mehtar Lam Power Plant
                                                     Obligation: $123,700
                                                     Disbursement: $40,000
                                                     Approval Date: April 2010
                                                     Planned Completion: December 2010
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Energy
                                                     CERP Category: Electricity
                                                     Project Type: Equipment
                                                     Outcome: Purchases of Equipment Ongoing

                                                 The purpose of this project is to improve the capacity of
Source: SIGAR site inspection, September 26, 2010.
                                                 the existing diesel generator power plant that provides
power to the city of Mehtar Lam. A new bulk storage fuel tank was installed at the plant; this eliminated
the need to bring in fuel by drums on a daily basis. In addition, the original plan was to repair one of the
existing two generators, install a third generator, and install a switchgear with an automatic transfer
switch that would allow multiple generators to run simultaneously. Problems with generator
compatibility required changing to a manual transfer switch, which added additional time to the project.
According to PRT officials, the provincial governor determines how long the plant will run each day—
around 13 hours in the summer and around 6 hours in the winter due to lighter demand. Reportedly,
1,068 metered, electrical customers are on the system and are billed bi-monthly, and, according to PRT
officials, the revenues collected pay for most of the plant’s fuel costs.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                            Page 27
Alingar Saffron Project
                                                     Obligation: $112,760
                                                     Disbursement: $98,960
                                                     Approval Date: September 2009
                                                     Planned Completion: December 2010
                                                     Location: Alingar
                                                     Responsible GIRoA Entity: Alingar District
                                                     CERP Category: Agriculture/Irrigation
                                                     Project Type: Agricultural Supplies
                                                     Outcome: Training Sessions Ongoing

Source: Project file, October 17, 2009             The project is a cooperative research effort that provided
                                                   saffron bulbs and about 5 acres of demonstration plots
in the Alingar District to teach local farmers how to cultivate and produce saffron as an alternative to
poppy. It takes the area of a football field to grow one pound of saffron, which is worth approximately
$1,000, according to project file documents. As part of the project, local farmers were invited to the
demonstration plots to learn saffron techniques and discuss opportunities for saffron production. We
did not inspect the project site, however, evidence in the project files suggests that the bulbs were
purchased and the plots were used as intended.


Women's Affairs Facility Upgrade and Community Kitchen
                                                     Obligation: $88,741
                                                     Disbursement: $53,245
                                                     Approval Date: February 2010
                                                     Planned Completion: December 2010
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Women's Affairs
                                                     CERP Category: Food Production and Distribution,
                                                     Gender
                                                     Project Type: Facility
                                                     Outcome: Renovations Ongoing
Source: SIGAR site inspection, September 26, 2010.
                                                The Women’s Affairs Facility Upgrade and Community
Kitchen project includes renovations—such as installation of a well, construction of an outdoor
classroom, and other additions—to an existing facility in the city of Mehtar Lam. The project
experienced delays because the contractor had multiple projects with the PRT and did not have the
capacity to work on multiple contracts at the same time. At the time of our inspection, the well was
completed and work was ongoing on the septic tank and latrines.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                             Page 28
Mehtar Lam Saffron Project
                                                     Obligation: $101,530
                                                     Disbursement: $75,840
                                                     Approval Date: September 2009
                                                     Planned Completion: December 2010
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Mehtar Lam Municipality
                                                     CERP Category: Agriculture/Irrigation
                                                     Project Type: Agricultural Supplies
                                                     Outcome: Training Sessions Ongoing

                                                The project is a cooperative research effort that provided
Source: SIGAR site inspection, September 28, 2010.
                                                more than an acre of demonstration saffron plots in the
city of Mehtar Lam to teach local farmers how to cultivate and produce saffron as an alternative to
poppy. We inspected the project site and observed the planted saffron field, which is leased from a
village elder. The saffron bulbs harvested under the project will be split equally among the ADT,
landowner, and a local cooperative that participates in training sessions. The ADT plans to use the bulbs
to start another saffron project in the Qarghahi District.


Charbagh Road Rehabilitation
                                                     Obligation: $81,262
                                                     Disbursement: $73,388
                                                     Approval Date: May 2010
                                                     Planned Completion: December 2010
                                                     Location: Qarghahi
                                                     Responsible GIRoA Entity: Rural Rehabilitation and
                                                     Development
                                                     CERP Category: Transportation
                                                     Project Type: Road
                                                     Outcome: Construction Ongoing
Source: SIGAR site inspection, September 29, 2010.
                                                The Charbagh Road project provided a 2.3-kilometer
improved gravel road for Charbagh Village in Qarghahi District. The road links the Charbagh village
bazaar to a suspension bridge that leads to another marketplace. When we inspected the project site,
we observed a steady flow of pedestrian and motorcycle traffic. The road appeared well-constructed,
and the contractor was in the process of building a masonry wall along one side of the road.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                              Page 29
Nahri Shahi Irrigation Canal
                                                     Obligation: $51,053
                                                     Disbursement: $25,526
                                                     Approval Date: May 2010
                                                     Planned Completion: January 2011
                                                     Location: Alingar
                                                     Responsible GIRoA Entity: Agriculture, Irrigation, and
                                                     Livestock
                                                     CERP Category: Agriculture/Irrigation
                                                     Project Type: Other Construction—Canal
                                                     Outcome: Renovations Ongoing
Source: SIGAR site inspection, September 28, 2010.
                                                The Nahri Shahi Irrigation Canal is 24 kilometers long; it
diverts water from the Alingar River and flows through the city of Mehtar Lam. This project includes
improvements along sections of the canal, such as the construction of a stone masonry wall along the
downhill side of the canal and culverts over the canal. When we inspected the project site, water was
not flowing through the canal. The work performed to date appeared well constructed. According to
ADT officials, construction on the project slowed during Ramadan and Eid, which caused some delays,
but, after the holidays, construction progressed nicely.

Active Projects – At Risk

We determined that 13 of the active projects were at risk, as of November 2010. These projects have a
total obligation of over $38.7 million, which is 72.6 percent of total obligations in our sample.


Alisheng Road Project Phase II (25 km.)
                                                 Obligation: $8,750,000
                                                 Disbursement: $5,345,220
                                                 Approval Date: July 2008
                                                 Planned Completion: December 2010
                                                 Location: Dowlat Shah
                                                 Responsible GIRoA Entity: Transportation
                                                 CERP Category: Transportation
                                                 Project Type: Road
                                                 Outcome: Sustainment and Construction Concerns
                                                 Phase II of the Alisheng Road project is a 25-kilometer
Source: Project file,September 4, 2010.          asphalt road that runs from the Alisheng District center
                                                 to the Dowlat Shah District center. During our
inspections, we traveled briefly along the road but were unable to inspect the road due to security
concerns. Based on our review of the project file, the PRT has performed quality assurance reviews
although security has been an ongoing concern. According to PRT officials, the contractor generally
performs well. However, in October 2010, the PRT noticed that the contractor incorrectly applied the
prime coat of paving. As a result, according to project file documents, a section of the road is beginning

SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                               Page 30
to deteriorate; several places are easily disturbed by digging the heel of a foot into the road surface. Our
main concern is with the sustainment of the road. Asphalt roads require equipment and supplies for
their upkeep. According to CERP officials, a sustainment plan for roads does not exist and Laghman
government officials do not have the resources to maintain the roads after they are completed.


North Ring Road Phase I (Duranta Bypass) (28.5 km.)
                                                   Obligation: $8,372,760
                                                   Disbursement: $1,961,241
                                                   Approval Date: August 2009
                                                   Planned Completion: December 2011
                                                   Location: Qarghahi
                                                   Responsible GIRoA Entity: Public Works
                                                   CERP Category: Transportation
                                                   Project Type: Road
                                                   Outcome: Sustainment concerns
                                                   The Duranta Dam creates a choke point for traffic
Source: SIGAR site inspection, September 29, 2010. traveling along Highway 1A, which connects Kabul to
                                                   Pakistan. The North Ring Road Phase I project is an
asphalt road that bypasses the dam to create an alternate traffic route. We inspected the Charbagh
village bazaar area of the project and found that the project was in the road-widening phase of the
work. The road appeared to be properly graded and progress payments appeared in line with the work
performed to date. The project is at risk because a sustainment plan is not in place and Laghman
government officials do not have resources to maintain the road after it is completed. As of December
2010, the road is not on track to meet the estimated completion date.


Mayl Valley Road (15 km.)
                                                 Obligation: $5,816,712
                                                 Disbursement: $1,053,590
                                                 Approval Date: March 2009
                                                 Planned Completion: December 2010
                                                 Location: Alisheng
                                                 Responsible GIRoA Entity: Public Works
                                                 CERP Category: Transportation
                                                 Project Type: Road
                                                 Outcome: Sustainment concerns
                                                 The Mayl Valley Road is a 15-kilometer asphalt road
Source: Project file,May 27,2010.                between the Villages of Dumlam and Nuri in Alisheng.
                                                 We did not attempt to inspect the road due to security
concerns. Based on our reviews of quality assurance reports and project file evidence, the PRT has
raised construction quality issues with the contractor and security is an ongoing issue. The project is at
risk because a sustainment plan is not in place and Laghman government officials do not have resources
to maintain the road after it is completed.


SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                            Page 31
Mehtar Lam Road Modernization Phase II (16.8 km.)
                                                     Obligation: $5,239,214
                                                     Disbursement: $4,400,940
                                                     Approval Date: December 2009
                                                     Planned Completion: December 2010
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Public Works
                                                     CERP Category: Transportation
                                                     Project Type: Road
                                                     Outcome: Sustainment and Construction Concerns

                                               The Mehtar Lam Road Modernization Phase II project is a
Source: SIGAR site inspection, September 26, 2010.
                                               16.8-kilometer series of asphalt roads in the city of
Mehtar Lam. When we inspected the project site, the contractor was constructing drainage structures
on both sides of the already paved road, which may result in damage to the asphalt. To construct the
drains, the contractor rolled heavy equipment along the road, but the soil between the drainage
channels and the existing pavement did not appear to be compacted. We observed that, in some areas,
the asphalt at the edges had already begun to deteriorate, which is a sign that the underlying support
for the asphalt edges may have been compromised. Additionally, the project is at risk because a
sustainment plan is not in place and Laghman government officials do not have resources to maintain
the road after it is completed.


Shamakat Road (11.9 km.)
                                                 Obligation: $4,162,877
                                                 Disbursement: $3,815,970
                                                 Approval Date: March 2009
                                                 Planned Completion: December 2010
                                                 Location: Alisheng
                                                 Responsible GIRoA Entity: Public Works
                                                 CERP Category: Transportation
                                                 Project Type: Road
                                                 Outcome: Sustainment concerns
                                                 The Shamakat Road project is an 11.9-kilometer asphalt
Source: Project file, July 21, 2010              road in the Alisheng District that links Shamakat to
                                                 Qalatak and Mehtar Lam. We could not inspect the
project because the most direct route leading to the project was damaged by flooding in July 2010. As a
result, we could not reach the project site in the time we allotted for our site inspections. Based on our
review of the project file, the PRT conducted quality assurance reviews. The PRT reports raised some
construction quality issues, but the documentation showed the contractor addressed those concerns.
The project is at risk because a sustainment plan is not in place and Laghman government officials do
not have resources to maintain the road after it is completed.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                           Page 32
Administrative Zone Road Phase II (6.3 km.)
                                                     Obligation: $1,865,745
                                                     Disbursement: $1,554,353
                                                     Approval Date: March 2009
                                                     Planned Completion: December 2010
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Public Works
                                                     CERP Category: Transportation
                                                     Project Type: Road
                                                     Outcome: Sustainment Concerns

Source: SIGAR site inspection, September 26, 2010.The Administrative Zone Phase II project includes
                                                  sections of paved road (totaling 6.3 kilometers) that are
located throughout the municipality. We observed the main section, which extends from the
Administrative Zone Phase I project and leads to the Laghman Province Center of Excellence and Afghan
National Police headquarters. At the time of our inspection, the road was paved and included a sub-base
shoulder. PRT officials reported concerns with the quality of the contractor’s work, which they required
the contractor to redo. Also, the original scope of the work changed, due to a land dispute between the
Afghan National Army and the Provincial Governor. The PRT intervened and relocated sections of the
road to other parts of the city. This suggests the project may not have been thoroughly planned and
coordinated with government of Afghanistan stakeholders. Additionally, the project is at risk because a
sustainment plan is not in place and Laghman government officials do not have resources to maintain
the road after it is completed.


Mehtar Lam Road Modernization Phase I (4.7 km.)
                                                     Obligation: $1,459,220
                                                     Disbursement: $1,356,035
                                                     Approval Date: November 2008
                                                     Planned Completion: December 2010
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Public Works
                                                     CERP Category: Transportation
                                                     Project Type: Road
                                                     Outcome: Sustainment Concerns

                                                 The scope of the Mehtar Lam Road Modernization
Source: SIGAR site inspection, September 26, 2010.
                                                 Phase I project is to design and construct 4.7 kilometers
of asphalt roads in the Mehtar Lam city center. When we inspected the project, the paving was
completed for most of the road. According to PRT officials, the original statement of work included
concrete gutters, but the gutters will not be installed because they conflict with a project the United
States Agency for International Development has planned to install water lines in Mehtar Lam. Rather
than decreasing the cost of the project, the PRT and the contractor agreed to do additional work to
remove excess organic material from the project site that was not suitable for supporting the roadway.
According to PRT officials, as of December 2010, the construction is completed but the final payment is
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                           Page 33
pending. The project is at risk because a sustainment plan is not in place and Laghman government
officials do not have resources to maintain the road after it is completed.


Laghman Province Center of Excellence
                                                     Obligation: $1,252,897
                                                     Disbursement: $1,127,604
                                                     Approval Date: November 2008
                                                     Planned Completion: December 2010
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Education
                                                     CERP Category: Education
                                                     Project Type: Facility
                                                     Outcome: Sustainment Concerns

Source: SIGAR site inspection, September 26, 2010.The Center of Excellence is a post-secondary educational
                                                  facility for boys that includes a two-level classroom
building, a three-level dormitory building, a dining facility, and other construction such as a protective
wall. The project also provides furniture, a generator, and solar panels. The facility was constructed
using a standard Ministry of Education design, according to PRT officials. The project experienced
significant delays, and upon inspection, we observed construction deficiencies such as leaking windows
in the classroom, dormitory, and dining buildings, and weak welding joints on the metal handrails on the
second-floor balcony of the classroom building. PRT officials included these and other deficiencies in a
final inspection report and stated that the contractor would not be paid the remaining 10 percent until
the deficiencies are satisfactorily resolved. The project was approved without adequate assurance that
the Afghan government had a plan in place to use it as intended and sustain it. As of December 2010,
the PRT reports that a ribbon cutting ceremony was held and students have moved in to the facility.
However, the Afghan government has not provided fuel needed to run the waste system and students
are living in unsanitary conditions.


Qarghahi Community LEAF (Agriculture Storage Facility)
                                                     Obligation: $771,463
                                                     Disbursement: $578,598
                                                     Approval Date: September 2008
                                                     Planned Completion: December 2010
                                                     Location: Qarghahi
                                                     Responsible GIRoA Entity: Agriculture, Irrigation, and
                                                     Livestock
                                                     CERP Category: Agriculture/Irrigation
                                                     Project Type: Facility
                                                     Outcome: Sustainment Concerns
Source: SIGAR site inspection, September 29, 2010.
                                                 The Laghman Empowerment Agricultural Facility (LEAF)
project in Qarghahi district includes a dry storage building, cold storage building, grain silo, flour mill,

SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                               Page 34
generator building, an electric tie to the municipal grid, other construction such as a security fence,
office furniture, and equipment required to run the complex. When we inspected the project site, the
facility was under construction. Overall, the construction appeared satisfactory and major equipment
items, such as the flour mill, had been purchased and stored on site. This project is at risk because a
sustainment plan is not in place. According to PRT and ADT officials, the Director for Agriculture,
Irrigation, and Livestock has not developed an operating agreement for maintaining the facility after
completion, and the facility will not be used until an agreement is reached.


Alingar Community LEAF (Agriculture Storage Facility)
                                                     Obligation: $771,463
                                                     Disbursement: $578,598
                                                     Approval Date: September 2008
                                                     Planned Completion: December 2010
                                                     Location: Alingar
                                                     Responsible GIRoA Entity: Agriculture, Irrigation, and
                                                     Livestock
                                                     CERP Category: Agriculture/Irrigation
                                                     Project Type: Facility
                                                     Outcome: Sustainment Concerns
Source: Project file, August 2, 2010.
                                                   The Laghman Empowerment Agricultural Facility (LEAF)
project in Alingar has the same scope of work as the LEAF project in Qarghahi. We did not inspect this
facility. Based on our review of project files, the PRT identified some construction concerns through the
quality assurance process, which the contractor appears to have addressed. This project is at risk
because a sustainment plan is not in place. According to PRT and ADT officials, the Director for
Agriculture, Irrigation, and Livestock has not developed an operating agreement for maintaining the
facility after completion, and the facility will not be used until an agreement is reached.


Gumain Road Rehabilitation
                                                     Obligation: $160,169
                                                     Disbursement: $101,131
                                                     Approval Date: May 2010
                                                     Planned Completion: December 2010
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Public Works
                                                     CERP Category: Transportation
                                                     Project Type: Road
                                                     Outcome: Sustainment Concerns

                                                The purpose of the Gumain Road project is to improve
Source: SIGAR site inspection, September 26, 2010.
                                                the surface of the 3.2-kilometer Gumain Road, which
runs from Gumain Village to Shamati Village in Mehtar Lam. According to PRT officials, the road was
impassable by vehicles before the project started. When we inspected the project site, we observed a

SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                               Page 35
section where an improvised drainage ditch had been cut across the road, apparently for irrigation
purposes. This raised questions about whether additional destruction of the road will occur.


Nomad Affairs Conference Building
                                                        Obligation: $47,931
                                                        Disbursement: $32,927
                                                        Approval Date: June 2010
                                                        Planned Completion: October 2010
                                                        Location: Mehtar Lam
                                                        Responsible GIRoA Entity: Nomad Affairs
                                                        CERP Category: Rule of Law and Governance
                                                        Project Type: Facility
                                                        Outcome: Construction Concerns

                                                 The project is to construct a conference building
Source: SIGAR site inspection, September 28, 2010.
                                                 adjacent to a new office building built by the Director of
Nomad Affairs. At the time of our inspection, the contractor was in the process of erecting exterior
masonry walls and concrete columns. The brick masonry was unreinforced and did not appear to have
sufficient mortar. Due to the poor quality of the work performed, the PRT required the contractor to
correct defective work. The contractor did not meet the planned completion date. Based on the
construction deficiencies we and the PRT identified, the contractor appears to have limited capacity to
fulfill the requirements of the contract, which increases the risk of unsuccessful outcomes.


Kanda Canal Check Dams
                                                        Obligation: $32,537
                                                        Disbursement: $8,134
                                                        Approval Date: June 2010
                                                        Planned Completion: December 2010
                                                        Location: Alingar
                                                        Responsible GIRoA Entity: Water Management
                                                        CERP Category: Agriculture/Irrigation
                                                        Project Type: Other Construction—Dam
                                                        Outcome: Construction Concerns

                                                The scope of this project includes the design and
Source: SIGAR site inspection, September 28, 2010.
                                                construction of two canal passageways to reinforce the
Kanda Canal as it crosses a large wadi. 33 When we inspected the project site, the mortar did not appear
well-mixed, and the wall had gaps due to an inadequate amount of cement. In certain areas, stones
were stacked on top of other stones with virtually no cement holding them together. The ADT officials
indicated that they had had problems with the contractor, and construction was delayed two times for
poor quality.

33
     A wadi is the valley of a stream that is usually dry except during the rainy season.
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                             Page 36
Active Projects -- Not Assessed

We did not assess 5 active projects that had a total obligation of nearly $500,000, which is less than
1 percent of total obligations for all projects in our review. We did not assess the projects because the
contracts had not been awarded or the work was still in the early stages.


Mia Khan Kas Suspension Bridge
                                                Obligation: $196,861
                                                Disbursement: $0
                                                Approval Date: July 2010
                                                Planned Completion: December 2010
                                                Location: Qarghahi
                                                Responsible GIRoA Entity: Rural Rehabilitation and
                                                Development
                                                CERP Category: Transportation
                                                Project Type: Bridge
                                                Outcome: Not Assessed
Source: Project file, May 22, 2010
                                                The purpose of this project is to design and construct a
suspension bridge for Mia Khan Kas Village in the Qarghahi District. Mia Khan Kas Village is
geographically isolated by two rivers to the east and south and a mountain range to the north. The
Qarghahi District Sub-Governor identified the project and the Director of Rural Rehabilitation and
Development nominated it as a priority project under the Capacity Building Fund initiative. We did not
inspect the project site because construction had not begun at the time of our scheduled inspection.
Based on our project file review and according to PRT officials, the project costs may increase. Although
originally intended as a walking suspension bridge, the bridge project is now intended for small vehicular
traffic. The PRT has submitted a request for additional funds to widen the bridge to accommodate
vehicular traffic.


Eslamabad Check Dam
                                                Obligation: $117,561
                                                Disbursement: $29,390
                                                Approval Date: July 2010
                                                Planned Completion: February 2011
                                                Location: Alisheng
                                                Responsible GIRoA Entity: Water Management
                                                CERP Category: Agriculture/Irrigation
                                                Project Type: Dam
                                                Outcome: Not Assessed

Source: Project file, not dated.                This project includes the refurbishment and
                                                reconstruction of two check dams and a canal in the
vicinity of Eslamabad village that are badly damaged due to erosion. We did not inspect the project

SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                            Page 37
because the contractor had just started work at the time of our inspections. According to ADT officials,
the project did not start until after Ramadan, and the project schedule was extended due to damage
caused by flooding. Based on our project file review, ADT officials coordinated this project with the
Director of Irrigation and village elders as part of the Capacity Building Fund initiative.


Nora Kareem Canal
                                                 Obligation: $57,600
                                                 Disbursement: $0
                                                 Approval Date: September 2010
                                                 Planned Completion: April 2011
                                                 Location: Qarghahi
                                                 Responsible GIRoA Entity: Water Management and
                                                 Village Elders
                                                 CERP Category: Agriculture/Irrigation
                                                 Project Type: Canal
                                                 Outcome: Not Assessed
Source: Project file, April 8, 2010.
                                                  The purpose of this project is to establish a major
irrigation canal in the villages of Zafron, Nora Kareem, and Spijimat, which are near the Gamberi
Garrison Base in Qarghahi district. We did not inspect the site, because the ADT was in the process of
reviewing bid proposals for the contract at the time of our scheduled visits. According to ADT officials,
the contract was awarded on October 23, 2010 and work did not start until November 10, 2010. Based
on our review of the project file, the ADT coordinated this project with the Director of the Water
Management Department as part of the Capacity Building Fund program.


Information, Culture, and Youth Directorate
                                                 Obligation: $56,298
                                                 Disbursement: $16,889
                                                 Approval Date: June 2010
                                                 Planned Completion: September 2010
                                                 Location: Mehtar Lam
                                                 Responsible GIRoA Entity: Information and Culture
                                                 CERP Category: Rule of Law and Governance
                                                 Project Type: Facility
                                                 Outcome: Not Assessed

Source: Project file, May 8, 2010.                 This project includes renovations to the Laghman
                                                   Department of Information and Culture main facility in
Mehtar Lam. The project includes the design and installation of a solar panel system, repairs to the
interior and exterior of the facility, and other improvements. We did not inspect the project site because
site work began about a month before our scheduled visits and minimal work had been performed,
according to PRT officials. Based on our project file review, PRT officials coordinated this project with the


SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                             Page 38
Director of Information and Culture as part of the Capacity Building Fund initiative. According to PRT
officials, as of December 2010, the project has been completed and the final payment is pending.


Sorkahkan Pump House
                                                Obligation: $42,522
                                                Disbursement: $0
                                                Approval Date: June 2010
                                                Planned Completion: December 2010
                                                Location: Qarghahi
                                                Responsible GIRoA Entity: Water Management
                                                CERP Category: Agriculture/Irrigation
                                                Project Type: Equipment
                                                Outcome: Not Assessed

Source: Project file,not dated.                 This pump house will supply water to the Sorkahkan
                                                Vocational and Technical Center and the village of
Sorkahkan for irrigation. We did not inspect the project site because the contract had just been signed
at the time of our scheduled inspection. According to ADT officials, the project started on September 23,
2010, but due to issues with construction quality, the contractor had to tear down and re-lay all of the
stone masonry work. Based on our review of the project file, the ADT coordinated this project with the
Director of the Water Management Department as part of the Capacity Building Fund program.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                          Page 39
COMPLETED PROJECTS

As of November 2010, 42 of 69 projects, representing $13.3 million (25 percent) of total obligations,
were completed. Of the 42 completed projects, we found that 13 were generally successful and
14 resulted in questionable outcomes. In addition, we did not assess 15 of the completed projects
because (1) there was insufficient evidence in the project file to make a determination and (2) we were
unable to inspect them due to security concerns or remoteness of the site.

Completed Projects – Generally Successful Outcome

We determined that 13 of the completed projects resulted in generally successful outcomes. These
projects have a total obligation of $1.5 million, which is 2.8 percent of total obligations in our sample.


Social Affairs Training Center
                                                     Obligation: $204,390
                                                     Disbursement: $204,390
                                                     Approval Date: July 2008
                                                     Completion Date: April 2009
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Social Affairs
                                                     CERP Category: Rule of Law and Governance
                                                     Project Type: Facility
                                                     Outcome: Construction Completed

                                                The Social Affairs Training Center is located in the city of
Source: SIGAR site inspection, September 26, 2010.
                                                Mehtar Lam. The project included the construction of a
15-room office building with latrine, guard room, septic system, and perimeter wall, as well as all
equipment and furnishings. We inspected the facility and observed that the administrative offices for
multiple social affairs programs were located at the center, and the facility appeared well-maintained
and occupied. According to the director of the center, who was onsite during our inspection, the center
provides services such as payment distributions under the martyr program.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                             Page 40
Laghman Prison
                                                     Obligation: $199,446
                                                     Disbursement: $199,446
                                                     Approval Date: June 2009
                                                     Completion Date: August 2010
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Laghman Provincial Prison
                                                     CERP Category: Repair of Civic and Cultural Facilities
                                                     Project Type: Facility
                                                     Outcome: Renovation Completed

                                                The Laghman Prison project included security upgrades
Source: SIGAR site inspection, September 28, 2010.
                                                to the construction of three new guard towers, a latrine
building, and a new perimeter wall at the front of the prison compound. The new stone wall attaches to
an older wall the previous PRT built in 2007. We inspected the project site, and all upgrades appeared to
be well constructed.


Alikel Canal Refurbishment
                                                     Obligation: $172,208
                                                     Disbursement: $172,208
                                                     Approval Date: June 2008
                                                     Completion Date: April 2010
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Agriculture, Irrigation, and
                                                     Livestock
                                                     CERP Category: Agriculture/Irrigation
                                                     Project Type: Other Construction—Canal
                                                     Outcome: Renovation Completed
Source: SIGAR site inspection, September 27, 2010.
                                                  Alikel canal provides irrigation water for families in and
around Alikel village. The project included improvements to sections of the canal: intake, retaining walls,
and sub-canal junctions. When we inspected the site, water was in the canal. According to PRT officials,
farmers use the canal to irrigate their land by temporarily diverting the water flow through openings in
the canal wall.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                Page 41
Prosecutor's Building Refurbishment
                                                     Obligation: $128,782
                                                     Disbursement: $128,782
                                                     Approval Date: March 2008
                                                     Completion Date: April 2009
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Laghman Chief Prosecutor
                                                     CERP Category: Repair of Civic and Cultural Facilities
                                                     Project Type: Facility
                                                     Outcome: Renovation Completed

                                                The project included internal and external improvements
Source: SIGAR site inspection, September 27, 2010.
                                                to the prosecutor’s building in the city of Mehtar Lam.
When we inspected the project site, the facility appeared well-maintained and fully occupied.


Laghman Rule of Law Office Equipment
                                                     Obligation: $127,840
                                                     Disbursement: $127,840
                                                     Approval Date: May 2009
                                                     Completion Date: August 2009
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Justice
                                                     CERP Category: Rule of Law and Governance
                                                     Project Type: Equipment
                                                     Outcome: Equipment Purchase Completed

Source: Project file, not dated.                  The project provided office equipment such as chairs,
                                                  desks, file cabinets, computers, and printers. Purchased
in July 2009, the equipment was distributed to the Laghman prosecutor’s office, the Laghman judge’s
office, and other Ministry of Justice offices throughout the province. When we inspected the Laghman
prosecutor’s office, the facility appeared to have sufficient office equipment to function as a judicial
entity. We did not attempt to visit the other offices.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                Page 42
State Radio Tower Upgrade
                                                     Obligation: $121,594
                                                     Disbursement: $121,594
                                                     Approval Date: July 2008
                                                     Completion Date: June 2009
                                                     Location: Dowlat Shah
                                                     Responsible GIRoA Entity: Information and Culture
                                                     CERP Category: Telecommunications
                                                     Project Type: Equipment
                                                     Outcome: Equipment Purchase Completed

                                                 The project included upgrades to the broadcasting
Source: SIGAR site inspection, September 26, 2010.
                                                 equipment at the radio tower in Laghman and included
repeater towers in the Alisheng and Dowlat Shah District centers to ensure even coverage of the
government-owned radio station. During our inspection of the Laghman station tower, officials onsite
who operate the equipment confirmed that the repeater towers in Alisheng and Dowlat Shah were
installed. They stated that the station provides multiple types of programming, including music, health
education, and children’s programs.


Badiabad Canal Intake
                                                     Obligation: $79,714
                                                     Disbursement: $79,714
                                                     Approval Date: January 2009
                                                     Completion Date: February 2010
                                                     Location: Alingar
                                                     Responsible GIRoA Entity: Agriculture, Irrigation, and
                                                     Livestock
                                                     CERP Category: Agriculture/Irrigation
                                                     Project Type: Other Construction—Canal
                                                     Outcome: Renovation Completed
Source: SIGAR site inspection, September 28, 2010.
                                               The Badiabad Canal Intake project in Badiabad village is a
stone masonry diversion wall that redirects a portion of the river flow into a 12-kilometer canal. When
we inspected the project site, water was flowing in the canal, and the improvements to the canal
appeared well-maintained.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                               Page 43
Hajiabad/Ghaziabad Hydro Electric Village Rehabilitation
                                                     Obligation: $78,155
                                                     Disbursement: $78,155
                            Turbine
                                                     Approval Date: May 2009
                                                     Completion Date: October 2009
                                                     Location: Alisheng
                                                     Responsible GIRoA Entity: Power
                                                     CERP Category: Electricity
                                                     Project Type: Equipment
 Generator
                              Flour Mill
                                                     Outcome: Equipment Purchase Completed

Source: Project file, August 31, 2009.          The purpose of the project was to build a micro-
                                                hydroelectric plant and provide equipment to run a flour
mill in the Village of Hajiabad. The micro-hydroelectric plant also provides electricity to four villages. We
were unable to access the site due to security concerns. Evidence in the project file suggests that the
PRT conducted quality assurance reviews and that the villagers developed a plan to fund operations and
maintenance costs. Each home receiving electrical power is to be charged a monthly fee for use.


Agriculture Sapling Protectors
                                                     Obligation: $63,425
                                                     Disbursement: $63,425
                                                     Approval Date: June 2009
                                                     Completion Date: September 2009
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Agriculture, Irrigation, and
                                                     Livestock
                                                     CERP Category: Food Production and Distribution
                                                     Project Type: Agricultural Supplies
                                                     Outcome: Equipment Purchase Completed
Source: SIGAR site inspection, September 28, 2010.
                                                The Agriculture Sapling Protectors project provided
2,950 empty metal barrels to protect saplings to test the feasibility of growing date palms in Laghman
Province. We did not inspect the original project site because the samplings no longer needed to be
protected. However, we saw some of the barrels that were used in the project when we inspected other
projects in the Mehtar Lam city center. According to ADT officials, the Director of Agriculture, Irrigation,
and Livestock plans to use the barrels for another sapling project.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                               Page 44
Domlech Irrigation Canal
                                               Obligation: $59,492
                                               Disbursement: $59,492
                                               Approval Date: December 2009
                                               Completion Date: August 2010
                                               Location: Dowlat Shah
                                               Responsible GIRoA Entity: Agriculture, Irrigation, and
                                               Livestock
                                               CERP Category: Agriculture/Irrigation
                                               Project Type: Other Construction—Canal
                                               Outcome: Renovation Completed
Source: Project file, not dated.
                                                 The Domlech Irrigation Canal project is a 400-meter
stone masonry canal in the Dowlat Shah district. We did not attempt to inspect the project site due to
security concerns. Evidence in the project file suggests that the ADT conducted quality assurance
reviews, which did not reveal significant construction deficiencies.


Mehtar Lam City Power Transmission Repair Supply of Goods
                                               Obligation: $58,504
                                               Disbursement: $58,504
                                               Approval Date: November 2009
                                               Completion Date: January 2010
                                               Location: Mehtar Lam
                                               Responsible GIRoA Entity: Energy
                                               CERP Category: Electricity
                                               Project Type: Equipment
                                               Outcome: Equipment Purchase Completed

Source: Project file,not dated.                 This was an equipment purchase project that supplied
                                                the city of Mehtar Lam with transformers and other
equipment to improve electrical power transmission in the city. We did not inspect the project site;
however, the project file included evidence that the equipment was purchased and provided to the
Director of Power and Energy. During our visits to other project sites in September 2010, it appeared
that electrical power was supplied throughout the city of Mehtar Lam.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                         Page 45
Nomad Affairs Center – Power
                                                     Obligation: $42,256
                                                     Disbursement: $42,256
                                                     Approval Date: May 2010
                                                     Completion Date: August 2010
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Nomad Affairs
                                                     CERP Category: Electricity
                                                     Project Type: Equipment
                                                     Outcome: Equipment Purchase Completed

                                                 The project included a solar-powered electrical system
Source: SIGAR site inspection, September 28, 2010.
                                                 and submersible water pump to provide the center with
sufficient power and water to conduct normal administrative operations. We observed the solar panels
on the roof and an electrical fan operating inside the building when we inspected the project site.


Agriculture Ministry Building Remodel
                                                     Obligation: $35,010
                                                     Disbursement: $26,082
                                                     Approval Date: May 2010
                                                     Completion Date: November 2010
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Agriculture, Irrigation, and
                                                     Livestock
                                                     CERP Category: Agriculture/Irrigation
                                                     Project Type: Facility
                                                     Outcome: Renovations Completed
Source: SIGAR site inspection, September 28, 2010.
                                               The project includes multiple repairs to the boundary
wall and other internal and external improvements to the Ministry of Agriculture, Irrigation, and
Livestock building in Mehtar Lam. When we inspected the project site, the height of the perimeter wall
had been increased to approximately 4 meters. The roof repair for the main building had not yet begun
because the ADT directed the contractor to finish work on the gutters first. According to ADT officials,
after the roof repairs had been completed, the interior finish work would begin. After our inspection,
the project was completed in November 2010.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                               Page 46
Completed Projects – Questionable Outcome

We found that 14 of the completed projects resulted in questionable outcomes. These projects have a
total obligation of over $10.5 million, which is 19.8 percent of total obligations in our sample.


Alisheng Road Project Phase I (23 km.)
                                                     Obligation: $8,050,000
                                                     Disbursement: $8,050,000
                                                     Approval Date: November 2007
                                                     Completion Date: May 2010
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Transportation
                                                     CERP Category: Transportation
                                                     Project Type: Road
                                                     Outcome: Sustainment Concerns

                                                 The Alisheng Road Phase I project is a 23-kilometer
Source: SIGAR site inspection, September 27, 2010.
                                                 asphalt road that connects the Mehtar Lam city center to
the Alisheng district center. We traveled along the road for approximately 45 minutes. The paving
appeared well done, with no noticeable problems. The shoulders of the road appeared to be well-
maintained, and we saw a steady flow of traffic along the road during our inspection. The project is at
risk because a sustainment plan is not in place and Laghman government officials do not have resources
to maintain the road.


Administrative Zone Road Phase 1 (2.9 km.)
                                                     Obligation: $870,134
                                                     Disbursement: $870,134
                                                     Approval Date: December 2008
                                                     Completion Date: August 2010
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Public Works
                                                     CERP Category: Transportation
                                                     Project Type: Road
                                                     Outcome: Sustainment and Construction Concerns

                                                 The Administrative Zone Road Phase I project is a paved
Source: SIGAR site inspection, September 26, 2010.
                                                 road around the perimeter of Forward Operating Base
Mehtar Lam that leads to the city center. The work is complete, but the project has not been closed out.
Documents in the project file indicate that the road surface has become rough in a short period of time
and that the concrete is failing due to improper mixing, placement and curing procedures during its
construction. PRT officials contacted the contractor to discuss solutions for the poor work. The PRT will
not close out the project until the contractor satisfactorily resolves the items; however, the PRT has
disbursed the full amount of the contract and has little leverage over the contractor to address these

SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                          Page 47
items. The outcome of this project is questionable because a sustainment plan is not in place and
Laghman government officials do not have resources to maintain the road.


Mehtar Lam Community Cold Storage

                                                     Obligation: $273,437
                                                     Disbursement: $273,437
                                                     Approval Date: July 2008
                                                     Completion Date: June 2010
                                                     Location: Alingar
                                                     Responsible GIRoA Entity: Agriculture, Irrigation, and
                                                     Livestock
                                                     CERP Category: Agriculture/Irrigation
                                                     Project Type: Facility
                                                     Outcome: Sustainment Concerns
Source: SIGAR site inspection, September 28, 2010.
The Mehtar Lam Community Cold Storage project is co-located with the Agriculture Storage and
Maintenance project. These two projects were the predecessors to the LEAF projects in Qarghahi and
Alingar. The Mehtar Lam Community Cold Storage project was completed and appeared well-
constructed, but the storage rooms were empty when we inspected the facility. The project is under
warranty until June 4, 2011. However, it is likely that the warranty will expire before the facility is used
because the Director of Agriculture, Irrigation, and Livestock has not finalized an agreement for
maintaining the facility.


Agriculture Storage and Maintenance
                                                     Obligation: $252,650
                                                     Disbursement: $252,650
                                                     Approval Date: June 2007 34
                                                     Completion Date: June 2010
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Agriculture, Irrigation, and
                                                     Livestock
                                                     CERP Category: Agriculture/Irrigation
                                                     Project Type: Facility
                                                     Outcome: Sustainment Concerns
Source: SIGAR site inspection, September 28, 2010.
                                                  The Agriculture Storage and Maintenance project in
Mehtar Lam was completed and appeared well-constructed but was not being used when we inspected
it. The project is under warranty until June 4, 2011. However, it is likely that the warranty will expire
before the facility is used because the Director of Agriculture, Irrigation, and Livestock has not finalized
an agreement for maintaining the facility.
34
  Documents in project file indicate that the project was proposed in June 2007 and awarded with fiscal year 2008
funding; however, the approval document was not dated.
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                  Page 48
Amin Abad Protection Wall
                                                     Obligation: $199,479
                                                     Disbursement: $199,479
                                                     Approval Date: August 2008
                                                     Completion Date: May 2009
                                                     Location: Qarghahi
                                                     Responsible GIRoA Entity: Not Documented
                                                     CERP Category: Agriculture/Irrigation
                                                     Project Type: Other Construction—Wall
                                                     Outcome: Construction Concerns

                                                The purpose of the Amin Abad Protection Wall project
was to construct a 600-meter long by 4-meter high gabion box wall in Amin Abad Village at the
intersection of the Laghman and Kabul Rivers. We attempted to inspect the project site but were unable
to do so due to security concerns. 35 We inspected the Farooz Abad Protection Wall, a similar project the
contractor had completed at the same time. The Farooz Abad Protection Wall project was within a few
hundred meters of the Amin Abad Protection Wall on the same river. We observed construction
deficiencies at the Farooz Abad Wall and questioned the outcome of the Amin Abad Protection Wall
based on similarities between the projects.


Farooz Abad Protection Wall
                                                     Obligation: $199,413
                                                     Disbursement: $199,413
                                                     Approval Date: August 2008
                                                     Completion Date: February 2009
                                                     Location: Qarghahi
                                                     Responsible GIRoA Entity: Not Documented
                                                     CERP Category: Agriculture/Irrigation
                                                     Project Type: Other Construction—Wall
                                                     Outcome: Construction Concerns

                                               The Farooz Abad Protection Wall is a 400-meter gabion
Source: SIGAR site inspection, September 29, 2010.
                                               wall constructed to protect agricultural lands and homes
at the intersection of the Laghman and Kabul Rivers. When we inspected the project site, a section of
the wall had collapsed and water had run from the river to the back of the wall. It appeared that the
gabions were laid without a suitable foundation, which led to the erosion.




35
  While we were on site at the Farooz Abad Protection Wall, a villager warned us that the area where the Amin
Abad, Farooz Abad, and Marof Khil protection walls are located is subject to ambush. After we visited the Farooz
Abad Protection Wall, we evacuated the area and did not attempt to visit the two other projects.
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                  Page 49
Sawati School
                                                     Obligation: $179,018
                                                     Disbursement: $179,018
                                                     Approval Date: May 2009
                                                     Completion Date: May 2010
                                                     Location: Qarghahi
                                                     Responsible GIRoA Entity: Education
                                                     CERP Category: Education
                                                     Project Type: Facility
                                                     Outcome: Work Does Not Meet Contract Requirements

                                                 The Sawati School project included the construction of a
Source: SIGAR site inspection, September 29, 2010.
                                                 new educational facility in Qarghahi district. During our
inspection, we observed an 8-classroom school building with two offices, a 6-stall latrine facility, a well,
and a boundary wall. At the time of our inspection, the classrooms were not furnished and, the facility
was not wired for electricity. The scope of work for the contract, however, included a 10-stall latrine,
160 student desks and other office equipment, and requirements for the contractor to install a complete
electrical system for the entire structure. We could not determine what caused the discrepancies due to
the lack of documentation in the project file.


Maroof Khil Protection Wall
                                                     Obligation: $99,522
                                                     Disbursement: $99,522
                                                     Approval Date: October 2008
                                                     Completion Date: March 2009
                                                     Location: Qarghahi
                                                     Responsible GIRoA Entity: Not Documented
                                                     CERP Category: Agriculture/Irrigation
                                                     Project Type: Other Construction—Wall
                                                     Outcome: Construction Concerns

                                               The purpose of the Maroof Khil Protection Wall project
was to construct a 400-meter long gabion box wall at the intersection of the Laghman and Kabul Rivers.
We attempted to inspect the project site but were unable to do so due to security concerns. We
inspected the Farooz Abad Protection Wall, which the contractor had completed at the same time, and
was within a few hundred meters of the Maroof Khil Protection Wall on the same river. We observed
construction deficiencies at the Farooz Abad Wall and questioned the outcome of the Maroof Khil
Protection Wall based on similarities between the projects.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                            Page 50
Alisheng Oluswali Footbridge
                                                     Obligation: $89,250
                                                     Disbursement: $89,250
                                                     Approval Date: October 2007
                                                     Completion Date: February 2009
                                                     Location: Alisheng
                                                     Responsible GIRoA Entity: Not Documented
                                                     CERP Category: Transportation
                                                     Project Type: Bridge
                                                     Outcome: Construction Concerns

                                              The Alisheng Oluswali Footbridge is a 100-meter
Source: SIGAR site inspection, September 27, 2010.
                                              footbridge over the Alisheng River that links the villages
of Alisheng-Oluswali and Dareshabad. When we inspected the project site, the bridge appeared to be
severely damaged by flooding. Further, CERP funded another project for a 100-meter gabion wall to
protect the footbridge, which we observed to be damaged. In its current state, the bridge is a safety
hazard and susceptible to collapse.


Shahi Canal Improvements
                                                     Obligation: $83,150
                                                     Disbursement: $83,150
                                                     Approval Date: March 2009
                                                     Completion Date: February 2010
                                                     Location: Alingar
                                                     Responsible GIRoA Entity: Local Leaders
                                                     CERP Category: Agriculture/Irrigation
                                                     Project Type: Other Construction—Canal
                                                     Outcome: Construction Concerns

                                                The Shahi Canal walls were originally made of compacted
Source: SIGAR site inspection, September 28, 2010.
                                                earth. The PRT repaired the canal walls and made other
improvements. When we inspected the project site, water was flowing in the canal; however, in one
section, it appeared that the earthen wall had washed out. Based on evidence in the project files, the
PRT observed water leakage during quality assurance reviews of the project. It appears that the
contractor did not address the leaks properly, which likely caused the earthen wall to erode and
collapse.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                          Page 51
Bagasarach Canal
                                                     Obligation: $64,721
                                                     Disbursement: $64,721
                                                     Approval Date: February 2010
                                                     Completion Date: August 2010
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Mehtar Lam Municipality
                                                     CERP Category: Agriculture/Irrigation
                                                     Project Type: Other Construction—Canal
                                                     Outcome: Sustainment Concerns

                                                 The Bagasarach Canal is approximately 370 meters long
Source: SIGAR site inspection, September 28, 2010.
                                                 and flows through the city of Mehtar Lam. When we
inspected the project site, the canal contained large amounts of silt, which impeded the flow of water
through the canal. According to a task force official, the city mayor signed a contract stating that he
would maintain the canal or risk the loss of funding for future projects. The official stated he would call
the mayor and remind him that he would receive no more projects until the Bagasarach Canal is
maintained.


Alisheng Oluswali Protection Wall
                                                     Obligation: $60,390
                                                     Disbursement: $60,390
                                                     Approval Date: March 2009
                                                     Completion Date: February 2010
                                                     Location: Alisheng
                                                     Responsible GIRoA Entity: Agriculture, Irrigation, and
                                                     Livestock
                                                     CERP Category: Other Urgent Humanitarian or
                                                     Reconstruction Projects
                                                     Project Type: Other Construction—Wall
Source: SIGAR site inspection, September 27, 2010.   Outcome: Construction Concerns

The Alisheng Oluswali Protection Wall was a 100-meter gabion wall that was constructed to protect the
Alisheng Oluswali Footbridge. We inspected the project site and observed that sections of the wall had
completely collapsed.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                               Page 52
Provincial Council Security Wall
                                                     Obligation: $59,432
                                                     Disbursement: $59,432
                                                     Approval Date: January 2008
                                                     Completion Date: August 2008
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Provincial Council
                                                     CERP Category: Protective Measures
                                                     Project Type: Other Construction—Security Wall
                                                     Outcome: Work Does Not Meet Contract Requirements

                                               The scope of this project included the design and
Source: SIGAR site inspection, September 28, 2010.
                                               construction of a 393-meter long by 3-meter high
security wall around the Laghman Provincial Council building; 124 meters were to be constructed of
brick masonry and 269 meters were to be constructed of steel bars with a stone masonry foundation.
When we inspected the project site, we observed a steel bar fence around a building that appeared to
have been occupied by squatters. The steel fence was only about 2-meters high, and there was no
124-meter brick masonry fence at the project site. From the evidence available, we could not determine
why these discrepancies occurred between the contract requirements and the work performed.


Ghunde Gabion Wall
                                                     Obligation: $56,835
                                                     Disbursement: $56,835
                                                     Approval Date: December 2007
                                                     Completion Date: October 2008
                                                     Location: Qarghahi
                                                     Responsible GIRoA Entity: Not Documented
                                                     CERP Category: Construction
                                                     Project Type: Other Construction—Wall
                                                     Outcome: Construction Concerns

Source: Project file, not dated.                   The scope of this project included the design and
                                                   construction of a 210-meter gabion protection wall in
Ghunde village. We were scheduled to inspect the project site. However, while we were at the Sawati
School, a local villager told our military interpreter that the wall had been destroyed by floods in July
2010. In light of this and security concerns earlier that day, we did not inspect the project site.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                            Page 53
Completed Projects -- Not Assessed

We did not assess 15 completed projects. These projects had a total obligation of more than
$1.4 million, which is 2.7 percent of total obligations in our sample. We did not assess the outcomes of
these projects because (1) there was insufficient evidence in the project file to make a determination
and (2) we could not inspect the projects due to security concerns or the remoteness of the project
sites.


Mulayan Protection Wall
                                                Obligation: $226,787
                                                Disbursement: $226,787
                                                Approval Date: August 2007
                                                Completion Date: July 2008
                                                Location: Mehtar Lam
                                                Responsible GIRoA Entity: Agriculture, Irrigation, and
                                                Livestock
                                                CERP Category: Agriculture/Irrigation
                                                Project Type: Other Construction—Wall
                                                Outcome: Not Assessed

The purpose of the Mulayan Protection Wall project was to reconstruct 500 meters of protection walls
that were destroyed during heavy flooding in 2007. We were unable to inspect the project site due to its
remote location. The project file did not contain sufficient evidence to determine what work had been
performed under the contract or whether military officials had performed quality assurance reviews
over the course of the project.


Myakhan Kac School
                                                Obligation: $172,128
                                                Disbursement: $172,128
                                                Approval Date: July 2009
                                                Completion Date: July 2010
                                                Location: Qarghahi
                                                Responsible GIRoA Entity: Education
                                                CERP Category: Education
                                                Project Type: Facility
                                                Outcome: Not Assessed

                                                The Myakhan Kac School project included the
construction of an eight-classroom school in Myakhan Kac Village with a surrounding wall, 10-stall
latrine, and a well. We were unable to inspect the project site due to its remote location. The project file
contained minimal evidence of work performed and no evidence of quality assurance conducted.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                            Page 54
Mashala Kamar School
                                               Obligation: $170,787
                                               Disbursement: $170,787
                                               Approval Date: May 2009
                                               Completion Date: May 2010
                                               Location: Qarghahi
                                               Responsible GIRoA Entity: Education
                                               CERP Category: Education
                                               Project Type: Facility
                                               Outcome: Not Assessed

                                                 The Mashala Kamar School project included an
8-classroom school with 10-stall latrine, well, and boundary wall in the village of Mashala Kamar. We
were unable to inspect the project site because it was too remote to inspect in the time allotted. The
project file contained minimal evidence of work performed and quality assurance conducted.


Alisheng Gabion Wall
                                               Obligation: $137,500
                                               Disbursement: $137,500
                                               Approval Date: October 2007
                                               Completion Date: October 2008
                                               Location: Alisheng
                                               Responsible GIRoA Entity: Agriculture, Irrigation, and
                                               Livestock
                                               CERP Category: Protective Measures
                                               Project Type: Other Construction—Wall
                                               Outcome: Not Assessed

The scope of the Alisheng Gabion Wall project included the design and construction of a 450-meter long
Gabion Wall in Rayn Village to prevent flood waters from damaging agricultural fields and an adjacent
road. We did not inspect the project site because it was too remote to inspect in the time allotted. The
project file contained minimal evidence of work performed and no evidence of quality assurance
conducted.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                          Page 55
Sangar Protection Wall
                                               Obligation: $103,092
                                               Disbursement: $103,092
                                               Approval Date: September 2007
                                               Completion Date: June 2008
                                               Location: Alingar
                                               Responsible GIRoA Entity: Agriculture, Irrigation, and
                                               Livestock
                                               CERP Category: Agriculture/Irrigation
                                               Project Type: Other Construction—Wall
                                               Outcome: Not Assessed

The scope of the project included the design and construction of a 300-meter stone masonry flood
protection wall and the design and repair of an existing 277-meter gabion wall. The project file
contained minimal evidence of work performed and no evidence of quality assurance reviews
conducted. We did not attempt to inspect the project site due to security concerns.


Tilli School
                                               Obligation: $98,365
                                               Disbursement: $98,365
                                               Approval Date: December 2008
                                               Completion Date: February 2010
                                               Location: Alisheng
                                               Responsible GIRoA Entity: Education
                                               CERP Category: Education
                                               Project Type: Facility
                                               Outcome: Not Assessed

Source: Project file, not dated.               The Tilli School project is a six-classroom school in the
                                               Mayl Valley in the northern end of the Alisheng District.
The project file contained minimal evidence of work performed and quality assurance reviews
conducted. We did not attempt to inspect the project site due to security concerns.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                          Page 56
Gamarden Bila Gabion Wall
                                               Obligation: $83,105
                                               Disbursement: $83,105
                                               Approval Date: December 2007
                                               Completion Date: October 2008
                                               Location: Mehtar Lam
                                               Responsible GIRoA Entity: Not Documented
                                               CERP Category: Protective Measures
                                               Project Type: Other Construction—Wall
                                               Outcome: Not Assessed

                                                The scope of the project included the design and
construction of a 250-meter gabion flood protection wall in Gamarden Bila Village. We did not inspect
the project site because it was too remote to inspect in the time allotted. The project file contained
minimal evidence of work performed and quality assurance conducted.


Parwai Girls School I Boundary Wall
                                               Obligation: $60,000
                                               Disbursement: $60,000
                                               Approval Date: May 2009
                                               Completion Date: March 2010
                                               Location: Alingar
                                               Responsible GIRoA Entity: Education
                                               CERP Category: Education
                                               Project Type: Other Construction—Wall
                                               Outcome: Not Assessed

Source: Project file, October 2009.            The Parwai Girls School I project included the
                                               construction of a boundary wall and an 8-stall latrine.
The project file contained minimal evidence of work performed and no evidence of quality assurance
reviews conducted. We did not attempt to inspect the project site due to security concerns.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                          Page 57
Parwai Girls School II Boundary Wall
                                               Obligation: $60,000
                                               Disbursement: $60,000
                                               Approval Date: May 2009
                                               Completion Date: October 2009
                                               Location: Alingar
                                               Responsible GIRoA Entity: Education
                                               CERP Category: Education
                                               Project Type: Other Construction—Security Wall
                                               Outcome: Not Assessed

Source: Project file, not dated.                The Parwai Girls School II project included the
                                                construction of a boundary wall and a well. We did not
attempt to inspect the project site due to security concerns. The project file contained minimal evidence
of work performed and no evidence of quality assurance reviews conducted.


Mandrawar Girls Primary School Wall
                                               Obligation: $59,500
                                               Disbursement: $59,500
                                               Approval Date: April 2009
                                               Completion Date: March 2010
                                               Location: Qarghahi
                                               Responsible GIRoA Entity: Education
                                               CERP Category: Education
                                               Project Type: Other Construction—Security Wall
                                               Outcome: Not Assessed

Source: Project file,not dated.                  The Mandrawar Primary School wall was constructed to
                                                 bring the school into compliance with Ministry of
Education standards and to shield the school from public view to allow girls to attend the school. Since
the project site is in a remote location, we were unable to inspect the wall to verify its condition or
determine whether girls now attend the school.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                          Page 58
Upper Gomrei Check Dam
                                                Obligation: $59,339
                                                Disbursement: $59,339
                                                Approval Date: December 2009
                                                Completion Date: August 2010
                                                Location: Alisheng
                                                Responsible GIRoA Entity: Community Development
                                                Council
                                                CERP Category: Agriculture/Irrigation
                                                Project Type: Other Construction—Dam
                                                Outcome: Not Assessed
Source: Project file, February 2010
                                              The Upper Gomrei Check Dam project included the
construction of reinforced concrete check dams for watershed management in the village of Upper
Gomrei. We did not attempt to inspect the project site due to security concerns. The project file
contained minimal evidence of work performed and quality assurance reviews conducted.


Gonapal School
                                                Obligation: $59,081
                                                Disbursement: $59,081
                                                Approval Date: August 2009
                                                Completion Date: May 2010
                                                Location: Alisheng
                                                Responsible GIRoA Entity: Education
                                                CERP Category: Education
                                                Project Type: Facility
                                                Outcome: Not Assessed

Source: Project file, April 22, 2010.           The scope of the Gonapal School project included the
                                                construction of a boundary wall and an 8-stall latrine,
repairs to the roof, and other improvements to provide sufficient drainage around the school. We did
not attempt to inspect the project site due to security concerns. The project file contained minimal
evidence of work performed and quality assurance reviews conducted.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                          Page 59
Arani Water Distribution
                                                Obligation: $55,000
                                                Disbursement: $55,000
                                                Approval Date: June 2009
                                                Completion Date: March 2010
                                                Location: Alisheng
                                                Responsible GIRoA Entity: Village Elders
                                                CERP Category: Water and Sanitation
                                                Project Type: Equipment
                                                Outcome: Not Assessed

                                                 This project included a water tank to provide potable
drinking water for the Arani village. The project also included the construction of a water reservoir for
the village’s agricultural land. We attempted to inspect the project site; however, the project had been
completed during a previous military rotation, and current military personnel could not locate the
project site using the coordinates in the project file. The project file contained minimal evidence of work
performed and quality assurance reviews conducted.


Gomrei Check Dam
                                                Obligation: $51,588
                                                Disbursement: $36,182
                                                Approval Date: August 2009
                                                Completion Date: January 2010
                                                Location: Alisheng
                                                Responsible GIRoA Entity: Agriculture, Irrigation, and
                                                Livestock
                                                CERP Category: Agriculture/Irrigation
                                                Project Type: Dam
                                                Outcome: Not Assessed
Source: Project file, not dated.
                                                 The Gomrei Check Dam project included the
construction of reinforced concrete check dams for watershed management in the village of Gomrei. We
did not attempt to inspect the project site due to security concerns. The project file contained minimal
evidence of work performed and quality assurance reviews conducted.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                           Page 60
Dumlam Check Dam
                                               Obligation: $44,415
                                               Disbursement: $44,415
                                               Approval Date: June 2009
                                               Completion Date: February 2010
                                               Location: Alisheng
                                               Responsible GIRoA Entity: Agriculture, Irrigation, and
                                               Livestock
                                               CERP Category: Agriculture/Irrigation
                                               Project Type: Other Construction—Dam
                                               Outcome: Not Assessed
Source: Project file, February 2010
                                                The Dumlam Check Dam project included the
construction of reinforced concrete check dams for watershed management in the village of Dumlam.
We did not attempt to inspect the project site due to security concerns. The project file contained
minimal evidence of work performed and quality assurance reviews conducted.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                         Page 61
TERMINATED PROJECTS

As of November 2010, 3 of 69 projects, representing $0.2 million (less than one percent) of total
obligations, were terminated. We present descriptions of the projects, but we did not assess their
outcomes. The original contract amounts for these projects exceeded $360,000. However, after the
projects were terminated, military officials followed CERP oversight procedures and de-obligated the
remaining balance for each project.


Seqanwateh Foot Bridge
                                                     Obligation: $124,524 36
                                                     Disbursement: $124,524
                                                     Approval Date: May 2009
                                                     Termination Date: October 2010
                                                     Location: Alisheng
                                                     Responsible GIRoA Entity: Public Works
                                                     CERP Category: Transportation
                                                     Project Type: Other Construction—Bridge
                                                     Outcome: Not Assessed

                                                 The PRT terminated the Seqanwateh Foot Bridge project
Source: SIGAR site inspection, September 27, 2010.
                                                 for convenience after severe flooding in July 2010
changed the course of the river and made construction of the bridge infeasible. When we inspected the
project site, it appeared that the contractor had built two pylons before the floods occurred. The flood
had destroyed one of the pylons.




36
  The contract amount was $184,106. After the contract was terminated, the PRT de-obligated the balance of
$59,581.
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                               Page 62
Karandali Foot Bridge
                                                     Obligation: $65,000 37
                                                     Disbursement: $65,000
                                                     Approval Date: February 2009
                                                     Termination Date: March 2010
                                                     Location: Alisheng
                                                     Responsible GIRoA Entity: Public Works
                                                     CERP Category: Transportation
                                                     Project Type: Other Construction—Bridge
                                                     Outcome: Not Assessed

Source: Project file, not dated.                   The scope of the project included the construction of a
                                                   steel cable suspension bridge near Karandali Village in
northern Alisheng District. Military officials suspended construction on the bridge in October 2009 due
to improvised explosive device activity in the vicinity of the site. We did not attempt to inspect the
project site due to security concerns.


Busram School Wall
                                                     Obligation: $37,039 38
                                                     Disbursement: $37,039
                                                     Approval Date: May 2009
                                                     Termination Date: March 2010
                                                     Location: Mehtar Lam
                                                     Responsible GIRoA Entity: Education
                                                     CERP Category: Education
                                                     Project Type: Other Construction—Security Wall
                                                     Outcome: Not Assessed

Source: Project file, not dated.                 The scope of the project was to design and build a
                                                 security wall around Busram School. Based on evidence
in the project file, the contractor stopped work on the wall in June 2009 due to a dispute between the
education department and local villagers. The task force terminated the project in March 2010 due to
security concerns.




37
 The contract was awarded for $130,000. When the task force terminated the contract, the remaining $65,000
was de-obligated.
38
     The original contract was for $49,385. When the contract was terminated, the task force de-obligated $12,346.
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                   Page 63
APPENDIX III: PERMISSIBLE CATEGORIES OF CERP FUND USAGE

The Department of Defense’s Financial Management Regulation 39 allows Commander's Emergency
Response Program funds to be used under 20 broad categories of assistance. Overall, the categories
have remained fairly constant since the initial CERP regulation was published in April 2005.

Agriculture/Irrigation: Projects to increase agricultural production or cooperative agricultural programs.

Battle Damage Repair: Projects to repair, or make payments for repairs of, property damage that results
from U.S., coalition, or supporting military operations and is not compensable under the Foreign Claims
Act.

Civic Cleanup Activities: Projects to clean up public areas; area beautification.

Civic Support Vehicles: Projects to purchase or lease vehicles by public/government officials in support
of civic and community activities.

Condolence Payments: Payments to individual civilians for the death or physical injury resulting from
U.S., coalition, or supporting military operations not compensable under the Foreign Claims Act.

Economic, Financial, and Management Improvements: Projects to improve economic or financial
security.

Education: Projects to repair or reconstruct schools or to purchase school supplies or equipment.

Electricity: Projects to repair, restore, or improve electrical production, distribution, and secondary
distribution infrastructure. Cost analysis must be conducted so that the village or district may collect
revenues to ensure operation and maintenance of systems for long-term use.

Food Production & Distribution: Projects to increase food production or distribution processes to further
economic development.

Former Detainee Payments: Payments to individuals upon release from Coalition (non-theater
internment) detention facilities.

Healthcare: Projects to repair or improve infrastructure, equipment, medical supplies, immunizations,
and training of individuals and facilities in respect to efforts made to maintain or restore health
especially by trained and licensed professionals.

Hero Payments: Payments made to the surviving spouses or next of kin of Iraqi or Afghan defense or
police personnel who were killed as a result of U.S. coalition or supporting military operations.

Other Urgent Humanitarian or Reconstruction Projects: Projects to repair collateral damage not
otherwise payable because of combat exclusions or condolence payments. Other urgent humanitarian
projects not captured under any other category. For other urgent humanitarian projects, this category
should be used only when no other category is applicable.



39
 DOD, Financial Management Regulation 7000.14-R, volume 12, chapter 27, Commanders’ Emergency Response
Program (January 2009).
SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                            Page 64
Protective Measures: Projects to repair or improve protective measures to enhance the durability and
survivability of a critical infrastructure site (oil pipelines, electric lines, etc.).

Repair of Civic and Cultural Facilities: Projects to repair or restore civic or cultural buildings or facilities.

Rule of Law and Governance: Projects to repair or reconstruct government buildings such as
administrative offices or courthouses.

Telecommunications: Projects to repair or extend communication over a distance. The term
telecommunication covers all forms of distance and/or conversion of the original communications,
including radio, telegraphy, television, telephone, data communication, and computer networking.
Includes projects to repair or reconstruct telecommunications systems or infrastructure.

Temporary Contract Guards for Critical Infrastructure: Projects to guard critical infrastructure, including
neighborhoods and other public areas.

Transportation: Projects to repair or restore transportation to include infrastructure and operations.
Infrastructure includes the transportation networks (roads, railways, airways, canals, pipelines, etc.) that
are used, as well as the nodes or terminals (such as airports, railway stations, bus stations, and
seaports). The operations deal with the control of the system, such as traffic signals and ramp meters,
railroad switches, air traffic control, etc.

Water & Sanitation: Projects to repair or improve drinking water availability, to include purification and
distribution. Building wells in adequate places is a way to produce more water, assuming the aquifers
can supply an adequate flow. Other water sources such as rainwater and river or lake water must be
purified for human consumption. The processes include filtering, boiling, and distilling among more
advanced techniques, such as reverse osmosis. The distribution of drinking water is done through
municipal water systems or as bottled water. Sanitation, an important public health measure that is
essential for the prevention of disease, is the hygienic disposal or recycling of waste materials,
particularly human excrement.




SIGAR Audit-11-7 Contract Performance and Oversight/CERP                                                   Page 65
APPENDIX IV: COMMENTS FROM U.S. FORCES-AFGHANISTAN




SIGAR Audit-11-7 Contract Performance and Oversight/ CERP   Page 66
SIGAR Audit-11-7 Contract Performance and Oversight/ CERP   Page 67
SIGAR Audit-11-7 Contract Performance and Oversight/ CERP   Page 68
SIGAR Audit-11-7 Contract Performance and Oversight/ CERP   Page 69
                 (This report was conducted under the audit project code SIGAR-030A).




SIGAR Audit-11-7 Contract Performance and Oversight/ CERP                               Page 70
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction (SIGAR) is to enhance
                              oversight of programs for the reconstruction of
                              Afghanistan by conducting independent and objective
                              audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to
                              provide accurate and balanced information, evaluations,
                              analysis, and recommendations to help the U.S. Congress,
                              U.S. agencies, and other decision-makers to make
                              informed oversight, policy, and funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over
                                     funds administered by U.S. and Afghan agencies
                                     and their contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all
                              released reports, testimonies, and correspondence on its
                              Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: hotline@sigar.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-2575
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                 •   Phone: 703-602-8742
                                 •   Email: PublicAffairs@sigar.mil
                                 •   Mail: SIGAR Public Affairs
                                     400 Army Navy Drive
                                     Arlington, VA 22202
